<html>
<title> - IMPACTS OF CLIMATE CHANGE ON THE INTERMOUNTAIN WEST</title>
<body><pre>[Senate Hearing 112-592]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-592

          IMPACTS OF CLIMATE CHANGE ON THE INTERMOUNTAIN WEST

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

    EXAMINE THE CURRENT AND FUTURE IMPACTS OF CLIMATE CHANGE ON THE 
    INTERMOUNTAIN WEST, FOCUSING ON DROUGHT, WILDFIRE FREQUENCY AND 
                        SEVERITY, AND ECOSYSTEMS

                               __________

                     SANATE FE, NM, AUGUST 17, 2012










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-532 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allen, Craig D., U.S. Geological Survey, Department of the 
  Interior.......................................................    12
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Dasheno, Hon. Walter, Governor, Santa Clara Pueblo, Espanola, NM.     3
deBuys, William, Writer and Historian, Chamisal, NM..............    34
Fort, Denise D., Professor of Law, University of New Mexico 
  School of Law, and Director, Utton Transboundary Resources 
  Center.........................................................    47
McDowell, Nathan, Staff Scientist and Director, Los Alamos 
  Environmental Research Park, Los Alamos National Laboratory, 
  Los Alamos, NM.................................................    19
Redmond, Kelly T., Regional Climatologist/Deputy Director, 
  Western Regional Climate Center, Desert Research Institute, 
  Reno, NV.......................................................    25

 
          IMPACTS OF CLIMATE CHANGE ON THE INTERMOUNTAIN WEST

                              ----------                              


                        FRIDAY, AUGUST 17, 2012

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                              Santa Fe, New Mexico.
    The committee met, pursuant to notice, at 10 a.m. at Santa 
Fe Community College, 6401 Richards Avenue, Room 216 Lecture 
Hall, West Wing of the Main Building, Santa Fe, New Mexico, 
Hon. Jeff Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Thank you all for coming. This is a hearing 
of the Senate Energy and Natural Resources Committee, a field 
hearing. We had a similar hearing 2 days ago up in Colorado 
Springs that Senator Mark Udall, who is a member of our Energy 
Committee, presided at. It was on a related issue, pretty 
similar, but not quite as broad as today's hearing.
    Let me just clarify for folks so there's no confusion. 
We're going to try to operate this like a hearing of the 
committee. We'll hear from the witnesses and then I'm going to 
ask some questions of them and then we'll probably adjourn the 
hearing at that point.
    If any of the folks in the audience have issues they would 
like to raise with the various of our panelists I'm sure 
they'll be here for a few minutes and you can do that at that 
time. But this is not a Town Hall meeting as such. So I didn't 
want to give anyone the false impression that it is.
    So the purpose of the hearing, the focus of it, is to talk 
about the impacts of climate change on the Intermountain West. 
During the early part of this year the fire season involved 
intense wildfires here in New Mexico and Colorado, across the 
Western United States. Many of those wildfires are continuing, 
of course, in the Northeast or Northwest part of the country in 
Washington and Oregon today threatening population centers, 
destroying hundreds of homes. I think we lost 250 some odd 
homes, 253, I believe is the right number down in Ruidoso in 
Lincoln County. There are a great many homes lost up near 
Colorado Springs.
    Wildfires have always been part of life in this region. But 
this year's fires have been exceptional in their intensity. The 
work of the Nation's top scientists tells us that some of the 
conditions contributing to the severity of this year's fire 
season, including drought, accompanied by above average 
temperatures, are now more commonly--are common because of 
human induced climate change.
    The National Research Council has examined historical 
wildfire data as part of its America's Climate Choices report. 
They found that quote, ``Over the past 30 years large and long 
duration forest fires in the American West have increased 
fourfold. The length of the fire season has expanded by two and 
a half months. The size of wildfires has increased several 
fold.'' The study further attributed the increase of wildfire 
activity to climate change stating that climate change has 
likely contributed to a significant increase in big forest 
fires in the West.
    They did a separate report, the same National Research 
Council, in 2011 and projected an increase in median annual 
area burn in parts of New Mexico and in the Sierras of over 300 
percent for a global increase in temperature of just one degree 
Celsius. That level of warming is all but certain to be reached 
and exceeded in coming years.
    The intent of this hearing is to receive testimony that 
puts these recent fires into a greater historical context to 
unravel the factors that contributed to their severity and to 
understand how climate change has and is expected to continue 
to change the landscape and ecosystems of the Intermountain 
West.
    This hearing will focus primarily on the broad impacts of 
climate change including increased wildfires, widespread damage 
to ecosystems and the potential for greater drought conditions.
    Of course management practices are also an important 
consideration. As I indicated that we had a hearing 2 days ago 
in Colorado Springs that focused primarily on that, chaired by 
Senator Mark Udall. The audio from that hearing and the written 
testimony from that hearing are available on the Senate Energy 
Committee website which is at energy.senate.gov. Let me just 
say for any of you that are interested in this, we are live 
streaming the audio from this hearing today on that same 
website. In the future that the audio from today's website and 
the testimony from today's hearing and the testimony from 
today's hearing will be on the website as well.
    Climate change is not just an issue that will affect future 
generations. The impacts are being felt today in different ways 
all around the country and around the world. Here in New Mexico 
we're dealing with increased temperatures, drought and more 
intense fires, but citizens in places like Louisiana and 
Florida are dealing with the impacts of rising sea levels. It's 
clear that communities across the country are paying very real 
costs for climate change right now.
    I hope that the discussion today will help to restart a 
national conversation about climate change. Although talk of 
climate change has become highly politicized, it's critical 
that we reduce greenhouse gas emissions here and abroad. 
There's a good articlein today's Santa Fe New Mexican--which 
many of you I'm sure saw--talking about how CO<INF>2</INF> 
emissions in the United States have fallen. It says coal and 
energy use are still growing rapidly in other countries, 
particularly China.
    CO<INF>2</INF> levels globally are rising, not falling. 
Moreover, changes in the marketplace and gloom in the economy 
and falling coal prices, a rise in natural gas prices can stall 
or even reverse the shift which has occurred here toward less 
use of coal and toward more use of natural gas which resulted 
in the main factor, resulting in lower greenhouse gas emissions 
here.
    In the Senate I work to advance policies to reduce 
greenhouse gases about 20 clean energy sources and greater 
efficiency. Most recently I introduced the Clean Energy 
Standards Act of 2012. Kevin Rennert, who is sitting here right 
beside me and who did the preparations for this hearing, is the 
main author of that legislation. He put it together. I very 
much appreciate his work on that.
    But this Clean Energy Standard Act would transition the way 
that the country generates electricity to a variety of clean, 
low carbon sources. While election year politics will keep this 
legislation from being enacted in this Congress. I hope it 
will, the legislation, will serve as a foundation for passing 
legislation perhaps in the next Congress.
    Climate change is a tremendously pressing issue that we 
can't afford to continue ignoring. We need to work to address 
it.
    We've got 5 very distinguished witnesses here today. Let me 
introduce them briefly. Then we'll hear from them. That's the 
main purpose of the hearing is to give them a chance to explain 
what their findings are and what their views are on this issue.
    First is Governor Walter Dasheno, who is a long time friend 
of mine and leader in the Native American community in our 
state and Governor of Santa Clara Pueblo. His Pueblo has been 
directly affected by these fires. He can talk about some of 
those effects and his views as to what needs to be done.
    Dr. Craig Allen, who is a Research Ecologist with the 
Geological Survey, U.S. Geological Survey, in Los Alamos. Thank 
you for being here.
    Dr. Nate McDowell, who is a Staff Scientist with Earth and 
Environmental Sciences Division at Los Alamos National 
Laboratory. Thank you for being here.
    Dr. Kelly T. Redmond, who is Regional Climatologist and 
Deputy Director of the Western Regional Climate Center in Reno, 
Nevada. Thank you for being here.
    Dr Bill DeBuys, who is a writer and historian currently 
living in Chamisal and has a recent book out on this very 
serious issue and the effects of climate change on the 
Southwest.
    So we're very anxious to hear from all of the witnesses. 
Why don't each of you take whatever time you need to explain 
your point of view? Your entire written testimony will be 
included in the record hearing. But please tell us the main 
points we need to understand. After everyone has testified then 
I'll have a few questions to ask.
    Governor, why don't you start?

STATEMENT OF HON. WALTER DASHENO, GOVERNOR, SANTA CLARA PUEBLO, 
                          ESPANOLA, NM

    Mr. Dasheno. Good morning, Senator. I brought with me 5 
disks so we can decide when we'll finally finish my new dike.
    The Chairman. OK.
    Mr. Dasheno. No, I'm just kidding, Senator.
    I, first of all would like to express my appreciation to 
you, in particular, for the opportunity to present our 
testimony today. For I'm going to illustrate to you basically, 
to start with this, to show you a few photographs that we have 
taken in Valles Caldera at the Santa Clara Canyon. I know right 
now the Canyon is closed. So it's going to be closed for some 
time because of the impact in flooding that was occurring just 
in the early part of July. So with that I ask Janelle to show 
the posters.
    The first poster shows the, what used to be the second pond 
in the left hand corner where all of the siltation from the 
runoff has gathered in all of the 4 ponds and 3 other ponds 
that we have. So today, those ponds are no longer functional. 
They serve as basically just a catch pool area, so we're going 
to have to go quite deep to remove all the siltation.
    The next picture shows our former Governor Michael 
Chavarria. He sat on the boulder that shows that the first 
flooding that occurred of July of last year. The initial runoff 
of the flooding was at about 5 feet high. The picture to the 
left, in the bottom corner, shows you how much the road has 
been cut by the flooding that has occurred.
    Initially the creek that you see in the bottom shows how 
deep it was. So it's gone up almost about 20 feet high based on 
the siltation and the debris that has come down.
    The bottom shows a piece of equipment that was buried in 
the flooding that occurred where 4 persons that were working 
got caught in the flooding. Four of them got caught in the 
water so they had to pull themselves out. Today that shows the 
illustration of the dangers of what flooding could occur. It's 
still very dangerous and that might be a monument some say 
sometime down the road.
    The Chairman. Now this is flooding that occurred as a 
result from the Los Conchas fire?
    Mr. Dasheno. That's correct, Senator.
    The Chairman. OK.
    Mr. Dasheno. The next photographs on the next side shows 
you the amount of work that's occurring, at least, before the 
flooding that happened on July 8th. The initial poster that you 
saw showed it on the east side. This is on the west side so 
that Thomas Berry has built up shows you that it really does 
amazing damage.
    The top photograph shows you the vehicles that are coming 
into to bring in some of the debris and some of the siltation 
that has occurred across the 4 ponds. So we're re-laying all of 
that back into the roads again as part of the restoration 
effort based on the finding that has been provided to us by 
BAER and by FEMA.
    The top two photographs show you what Santa Clara Canyon 
used to look like. Beautiful area. Pristine. One of the best 
fishing areas in northern New Mexico. Then the drainage that we 
developed based on what we were going to do.
    The first photograph shows the Four Pond. The second 
photograph shows the pond as it was draining because we were 
going to reintroduce the Rio Grande Cutthroat back into the 
area again. Today the bottom shows what it looks like today. No 
longer in the water. No longer any vegetation. It's all been 
refilled with siltation.
    This is what has occurred because of the Los Conchas fire. 
The trees are all dead at this point. Both sides of the 
mountain range have been destroyed, have been devastated. This 
is very little vegetation at the culvery were coming down.
    The bottom photograph shows you the restriction which is 
misleading because although it's beautiful on the ground on the 
bottom side it is just been devastated. So it's sad that this 
is a look at the creek.
    Again, this is what the first pond used to look like and 
then the second pond.
    During the course of the fire we had as many as 7 
helicopters that would come in to pick up water. After one took 
off another one would stand in line. After that they'd come in 
and drop off the water here and there. So that the illustration 
that shows here is no longer there at this point.
    This is some of the damage that has occurred. We've gone 
into look at the area. The top left corner shows you some 
forklifts being looked at by some of the people that will be 
doing some major reforestation and regeneration of some of the 
area.
    While we're here I just want to mention that what the 
gentlemen is referring to and showing is that when the water 
came down at that particular location, it was about 6 or 7 feet 
high when the water came down. Before Governor Chavarria 
illustrated the issue by indicating that he was working with 
the authority of known individuals that were a hot shot team 
that was from Ohio State. He asked them to leave at that point 
because it was starting to rain.
    What happened was as they were leaving there was 4 deer 
that jumped. As part of that the first deer that came in did a 
flip and they were wondering what happened. Anyway, the 
individuals thought that the person that was driving the 
vehicle had not stopped they would have been crushed by the 
blow of that truck in that area. So that's what he was showing 
what could have occurred.
    The next photograph shows Congressman Lujan coming in to do 
an assessment of the area that we did with him and yourself and 
Governor Martinez as well, been up there along with Senator 
Udall and have done that.
    The bottom photograph shows you the damage that has 
occurred. What used to be a grange area and the Golden Pond, 
that's basically been destroyed. This photograph was taken 
around May of this past year, now that is no longer there. It's 
basically been eaten up on both sides of and devastated the 
canyon.
    The Avanyu on the weekend of the Pika market the flooding 
that occurred, we had 2,000 CFS that came down from the 
photograph that happened in the Santa Clara Canyon. Just to 
illustrate to you, although it's a 2,000 CFS, the bottom 
picture shows you what the impact would be if it was at 20,000 
CFS.
    As you might recall, Senator, on the afternoon of August 21 
there were two scours. One scour that was on Santa Clara 
Canyonsite and the other scour that was on the Bandelier slide 
area. If that collapsed like that had been reversed this is 
what would have been destroyed, Senator. Lives would have been 
lost. Phones would have been lost, but fortunately that didn't 
occur. What occurred was what happened up on top.
    Although 4 persons were in the area and almost drowned, 
fortunately no lives were lost. But as a precaution Biscayne 
has been closed and was closed last year by the authorization 
of the Tribal Council so that we no longer--excuse me, are able 
to get in to do that.
    So that what I'm hoping to illustrate by this photographs 
is that the work that's being done on the bottom will show you 
at the 2,000 CFS. If the 20,000 CFS would ever occur this is 
what the impact is going to be. We've done some major work to 
do some improvement to prevent that from occurring. Today as I 
speak the VOR is putting in some pylons so that we'll be able 
to protect the home areas on both the west side and the south 
side of the village.
    This is the effort that went into by the committee and the 
volunteers last year. We've had hundreds of volunteers from Los 
Alamo, from Santa Fe. It's been NOAA, people that were 
associated with the laboratory, people that were associated 
with the State of New Mexico, the general public and other 
individuals that assisted in making sure that we were able to 
do the work because of the affected flooding that we're looking 
at. So that we had those individuals that did all of the work.
    We don't know how nature is going to react. So again, the 
bottom photograph just illustrates to you what the impact would 
be with the flooding. The area today could be impacted again, 
if we were to have more flooding. We anticipate, Senator, that 
that's going to continue to occur at least for the next 5 
years.
    These are some of the efforts that are being made, along 
with yourself, Senator, Senator Udall, Congressman Lujan and 
Governor Martinez, like you all have had a chance to visit 
Biscayne, to show you, for us to show you, what needs to be 
done. So we want to thank all of you, particularly the New 
Mexico Congressional delegation. They're going to do a letter 
that wants to release the funds from FEMA. I understand it 
takes a little while to get FEMA to release funds, but 
fortunately with your assistance, we were able to turn it 
around a lot quicker.
    However, the issue still remains that the State still has 
to release some fund extensions. As you know, you probably have 
read the newspapers these last couple of weeks. We received 
another billion dollars to do some work. Then we received 
another $5 million. But that bill has been held up in the State 
of New Mexico and we can't do any work.
    So we asked Congressman Lujan on his visit a few days ago. 
If we could ask you, again, to have the state, if they could 
please do that to get this project going.
    I'll show you 2 photographs that we've taken.
    One is to build a greenhouse so that we can replant and 
promulgate our own Douglass fir trees, our pine and other area 
plants of this case that we need to grow because of the 
acclimation of the area it requires that we have to do that. So 
we're using that to assist our efforts to do that.
    The bottom portion of the photograph shows you 3 
generations. There's actually a grandma standing up but she's 
not in the photograph, of 4 generations of people, that are 
going to start this effort to regenerate and reforest the area 
again. Some of the trees that were burned were as old as two 
and 3 hundred years old.
    So the tree that we plant today is going to take us at 
least 300 years to be marketable. The trees that were burned 
this past year have been a total loss. We planted 1.5 million 
trees from the Cerro Grande fire. We've logged approximately 50 
to 60 percent of those trees, just to illustrate to what the 
impact has been with these photographs.
    I'll now go to my presentation.
    The Chairman. OK.
    Mr. Dasheno. Thank you, Senator and Chairman Bingaman for 
this opportunity to testify on the critically important issue 
of climate change and its impact on our region in general and 
on the Santa Clara Pueblo in particular. My name is Walter 
Dasheno. I am the Governor of Santa Clara Pueblo, as well as 
the Chairman of the Eight Northern Indian Pueblos Council.
    Senator, our Pueblo is involved in a multigenerational 
effort to restore our forest and our watershed after the 
devastating Los Conchas wildfire. Although mercifully no lives 
were lost and no homes in Santa Clara were burned, we still saw 
our traditional and treasured homeland and spiritual sanctuary, 
the Santa Clara Canyon, practically destroyed. This includes 
our land of origin, the P'opii Khanu and numerous cultural and 
traditional sites. In addition the loss of the forest was 
devastating to our wildlife and wildlife habitat, recreational 
resources and to the purity of our water which we use for 
irrigation and many traditional purposes.
    Because the Santa Clara Canyon has been stripped of its 
vegetation, the Pueblo is at a tremendous risk of and need has 
already expressed severe flood events. The channel through the 
Santa Clara Pueblo does not have the capacity to carry large 
post-fire flows. Hundreds of residential structures including 
several public structures are at risk from flood and debris 
flows if no action is taken immediately. We live under the 
daily threat of the destruction of much of the Pueblo and the 
possible loss of life.
    FEMA has just allocated significant funding to help us 
restore the water control structures in the Canyon and do other 
important work. We continue to work with other Federal agencies 
such as the Bureau of Indian Affairs, Army Corps of Engineers, 
U.S. Forest Service, Bureau of Reclamation and other agencies 
in the complex effort to put in place flood mitigation measures 
and a forest restoration program. We are grateful for the 
support of these agencies, although continued funding is needed 
to achieve success. As I said, it's not really to be measured 
based on what we do but what we can accomplish in getting off 
those tasks.
    We are also very grateful to you, Senator Bingaman, for 
your active support. I would ask that in addition to supported 
Federal agency action that you also support S. 2283, which 
would allow tribal government to directly request a 
Presidential disaster declaration. This would be in fulfillment 
of the trust responsibility and expedite disaster recovery 
assistance.
    For the purposes of this hearing there are two key 
questions.
    First, to what extent did climate change contribute to this 
disaster?
    Second, to what extent will climate change impact our 
recovery efforts for the next 50 to 100 years?
    In regard to the first question, I believe that climate 
change was a significant factor contributing to the disaster. 
At the time of the fire, it was reported that the living trees 
in the Canyon had lower moisture content than the wood you 
would typically buy in a lumber yard. This is a result of 
drought conditions in the Southwest that the scientific 
community continues to associate with climate change.
    In addition, higher temperatures in general create more 
conducive conditions for wildfires.
    Climate change was not the only reason this fire was so 
devastating. The forest was unhealthy with excessive 
undergrowth and too great a tree density, making conditions 
ripe for an intense fire that will kill the mature trees. As a 
result of managing the impact of climate change we must manage 
the conditions in our forest.
    As for the second question, based on our preliminary 
research, we are very concerned that continued rapid climate 
change will have a significant and highly adverse effect on our 
efforts to regenerate the forest and restore the Canyon 
ecosystem. Warming alone could lead to a decline in suitable 
habitat with indigenous species of the Canyon. Moreover, if we 
continue to experience more frequent and more severe wildfires, 
we could reach a tipping point at which the trees may no longer 
regenerate.
    The Los Conchas fire re-burned an area where we had planted 
a million trees in an effort to recover from an earlier 
wildfire. Theoretically, with the change in climate other 
plants and animal species adapted to the new climate will move 
in. However, we do not know how long that will take nor whether 
any such species actually exist or what the forest would look 
like after such species establish itself. The answers to these 
questions will determine the health of the Santa Clara Canyon 
and because of the Canyon's central importance to our culture, 
the health, well being and identity of the Santa Clara people.
    Senator, it will take generations of our land to recover 
from the devastation of the Los Conchas fire. Because of 
climate change it is not clear what the future will look like. 
But this is our only homeland. It is a place we have been 
entrusted with since time immemorial.
    We ask that the Federal Government support the funding 
necessary to understand the implications of climate change as 
well as to implement the necessary forest management and forest 
recovery fire and restoration.
    Senator, I just want to say that in due course of what is 
going to occur to our people in the next generation to come, we 
are going to be in this long haul. The generations coming after 
us and those that will come after us for several generations to 
follow, they will be the recovery effort until someday in the 
future someone will say those men and women that were there at 
the time of the fire, made the best decision and the right 
decision. Today we can see our forests. Today we can drink the 
water. Today we can practice our culture. Today we can fish. 
Today we can hunt. Today we can see a healthy forest and a 
good, strong ecosystem that will benefit all the rest of the 
region and generations to come.
    So with that, Senator, I thank you very much. God bless 
you. I know that you're going to be retiring sometime very, 
very soon in the future. With that we wish you well.
    You have done well for all of us. You've illustrated being 
a champion for us, but not too many we can make peace with, 
thankfully the future of New Mexico and we wish you the best. 
Please live healthy, live well and prosper, my friend. Good 
luck.
    [The prepared statement of Mr. Dasheno follows:]

   Prepared Statement of Hon. Walter Dasheno, Governor, Santa Clara 
                          Pueblo, Espanola, NM
                              introduction
    Thank you, Chairman Bingaman and members of the Committee, for this 
opportunity to testify on the critically important issue of climate 
change and its impact on our region in general, and on the Santa Clara 
Pueblo in particular. My name is Walter Dasheno. I am the Governor of 
the Santa Clara Pueblo, as well as the Chairman of the Eight Northern 
Indian Pueblos Council.
    As you are aware, the Santa Clara Pueblo has embarked on a multi-
generational effort to restore our forests and our watershed after the 
devastating Las Conchas wildfire. For the purposes of this hearing, 
there are two key questions. First, to what extent did climate change 
contribute to this disaster? And second, to what extent will climate 
change impact our recovery efforts over the next 50-100 years?
    With regard to the first question, I believe that climate change 
was one of several significant factors contributing to the disaster. At 
the time of the fire, it was reported that the living trees in the 
canyon had lower moisture content than the wood you would typically buy 
at a lumber yard. This is a result of drought conditions in the 
Southwest that the scientific community continues to associate with 
climate change. In addition, higher temperatures in general create more 
conducive conditions for wildfires. I must note, however, that climate 
change was not the only reason this fire was so devastating. The forest 
had become unhealthy, with excessive undergrowth and too great a tree 
density, making conditions ripe for an intense fire that would kill the 
mature trees. As a part of managing the impact of climate change, we 
must manage the conditions in our forests.
    As for the second question, based on our preliminary research, we 
are very concerned that continued rapid climate change will have a 
significant and highly adverse effect on our efforts to regenerate the 
forest and restore the Canyon ecosystem. Warming alone is likely to 
lead to a decline in suitable habitat for the indigenous tree species 
of the Canyon. Moreover, if we continue to experience more frequent and 
more severe wildfires we could reach a tipping point at which the trees 
may no longer regenerate. The Las Conchas Fire reburned an area where 
we had planted a million trees in an effort to recover from an earlier 
wildfire. Theoretically, with the change in climate other plant and 
animal species adapted to the new climate would move in.
    However, we do not know how long that will take, nor whether any 
such species actually exist, or what the forest would look like after 
such species establish themselves. The answers to these questions will 
determine the health of the Santa Clara Canyon and, because of the 
Canyon's central importance to our culture, the health, well-being and 
identity of the Santa Clara people.
                 background on the las conchas wildfire
    In the summer of 2011, the Santa Clara Pueblo was devastated by the 
Las Conchas Fire, at the time the largest wildfire in New Mexico 
history (although that unfortunate record has already been eclipsed by 
the Whitewater-Baldy Complex Fire. Although mercifully no lives were 
lost and no homes at Santa Clara were burned, we still saw our 
traditional and treasured homeland and spiritual sanctuary, the Santa 
Clara Canyon, practically destroyed. We estimate that more than 16,000 
acres of our forest lands burned in this fire and, together with the 
lands that we lost in the Oso Complex Fire of 1998 and the Cerro Grande 
Fire of 2000, 80% of our forests and a huge part of our heritage has 
been destroyed. In addition, the fire burned thousands of acres of our 
traditional lands that are outside our current reservation and that 
continue to hold cultural sites and resources of great importance to 
us. This area encompasses our lands of origin, the P'opii Khanu--the 
headwaters of our Santa Clara Creek, and numerous cultural and 
traditional sites. In addition, the loss of the forest is devastating 
to wildlife and wildlife habitat, recreational resources, and to the 
purity of our water--which we use for irrigation and many traditional 
purposes. (See attached illustration of fire impact on Santa Clara 
watershed.)* Throughout this tragedy, the Santa Clara people have shown 
grit and determination to persevere and to begin the long road to 
recovery so that while my generation may never see the canyon in its 
glory again, that will not be said of the next generation.
    Because the Santa Clara Canyon has been stripped of its vegetation, 
the Pueblo is at tremendous risk of flooding. Over 50% of the Santa 
Clara Pueblo watershed burned during the Las Conchas fire. Because of 
the high severity of the burn, there has been a dramatic reduction in 
the infiltration rates in the burned area--the soil is now what is 
termed by soil scientists ``hydrophobic.'' This has resulted in a four-
to eight-fold increase in runoff and sediment/debris flow into the 
Santa Clara Creek, posing a severe threat to the lives and safety of 
the people of Santa Clara Pueblo and increasing the potential for 
widespread property damage. The channel through Santa Clara Pueblo no 
longer has the conveyance capacity necessary to safely pass large post-
fire flows. Hundreds of residential structures including several public 
structures are at risk from flood and debris flows if no action is 
taken immediately. (See attached illustrations of the potential flood 
risk zone to Santa Clara for a ten-year event.)*
---------------------------------------------------------------------------
    * Illustrations have been retained in committee files.
---------------------------------------------------------------------------
    A mere 1 inch rain event over 8 hours, or what hydrologist refer to 
as an average monsoon season storm, on August 21, 2011 led to intense 
flooding and the emergency evacuation of Santa Clara and US Army Corps 
of Engineer personnel. This rain event resulted in a Presidential 
Disaster Declaration. As the Department of the Interior, Interagency 
Burned Area Emergency Response (``BAER'') Team noted the intense flames 
from the fire burned trees and vegetation off the steep slopes of the 
canyon and heated the soils causing severe damage to the natural 
resources of the area and placing the downstream tribal members of the 
Santa Clara Pueblo at risk to extreme flooding. The post-fire watershed 
effects were rife for massive landslides and debris flows which 
occurred on August 21, 2011. The August 21, 2011 event produced massive 
debris (including boulders) and severe mud flows to the canyon bottom. 
The Canyon reservoirs were overwhelmed (over topped) by this average 
rainfall event following the fire and are now full of sediment. Flood 
protection emergency measures put in place after the Las Conchas fire 
were inches away from being compromised. It is important to note that 
this storm was an isolated thunderstorm over a small portion of the 
Santa Clara watershed (one drainage) and not over the entire watershed 
(what hydrologist refers to as a general storm). Another similar event 
occurred this past July, destroying much of the recovery work we had 
undertaken over the prior year. If the rain event of August 21, 2011 
had occurred over the entire post fire Santa Clara Pueblo watershed, 
the Santa Clara Pueblo itself would have been devastated.
    I live in fear of the destruction of my Pueblo and the possibility 
of loss of life. This has motivated my efforts, and that of the whole 
Santa Clara government, to secure the funding needed to put in place 
adequate flood control measures. In just the last few weeks, the 
Federal Emergency Management Agency (FEMA) has allocated very 
significant funding to help us restore the water control structures in 
the Canyon and do other important work. We continue to work with other 
Federal agencies, such as the Bureau of Indian Affairs, Army Corps of 
Engineers, U.S. Forest Service, Natural Resources Conservation Service 
and others in the complex effort to put in place flood mitigation 
measures and a forest restoration program. We have been very grateful 
for the support of these agencies, although continued funding is needed 
to achieve success.
    However, we are only at the beginning of the flood mitigation and 
forest recovery effort. The fire has raised numerous, interrelated, 
short and long-term concerns for Santa Clara and other surrounding 
communities, almost all of which are further complicated by climate 
change. First, during the summer monsoon season, we have faced every 
afternoon the threat of a thunderstorm that would send torrents of 
water and debris down the Santa Clara Canyon and Creek, creating a huge 
risk of dam failure and catastrophic flooding for our homes, public 
buildings and irrigation system. Second, we must address the 
environmental impacts of this fire. This includes the physical health 
impacts from the huge quantities of smoke, as well as the devastating 
emotional impact to our community of such a great loss. It also 
includes water quality impacts as tons of ash, debris and other 
materials flow into the Santa Clara Creek affecting fisheries, wildlife 
consumption, agriculture and cultural uses, and safety issues within 
our Santa Clara Canyon due to the destabilized landscape resulting in 
falling boulders and dead and down trees. This runoff flows into the 
Rio Grande, affecting water quality for communities like Santa Fe that 
are downstream or that use the Rio Grande. Third, we are still 
assessing how to recover from the loss of an unprecedented amount of 
cultural resources and sites, from damage to sacred places, to the loss 
of animal and plant species that have been integral to Santa Clara 
cultural and spiritual practices for generations. Fourth, Santa Clara 
has suffered extended financial impact, including not only the direct 
efforts to address the fire, but also from the temporary closure of 
Puye Cliff Dwellings, the reduction in arts and crafts sales, and the 
decline in tourists and visitors to our hotel. Fifth, we still need 
fire suppression resources to protect the remaining 20% of our forests. 
Finally, we must address the long term restoration of the forests. This 
is a project that we anticipate will take many decades, but one to 
which we have already set our minds.
    the effect of climate change on forest regeneration and recovery
    We are still struggling with the post-fire consequences of the Las 
Conchas wildfire and have only just begun the infinitely more complex 
process of addressing the regeneration of the forest in the Canyon. 
However, we have looked at research into the effect of climate change 
on forest regeneration, including a study of the Greater Yellowstone 
Ecosystem undertaken by academics at the University of California--
Merced (see http://www.ucmerced.edu/news/study-climate-change-increase-
yellowstone-wildfires-dramatically).
    The predictions of that study look a lot like both our immediate 
past and our likely future. For example, it predicted that the expected 
rising temperatures caused by climate change could increase the 
frequency of large wildfires in Yellowstone to an unprecedented level. 
While not quite on an annual basis, we have experienced the harmful 
effects of four major wildfires in the last 15 years, none of which 
were started on the Pueblo. While fire can be a natural and important 
part of the maintenance of a healthy forest system, fires of this 
intensity and frequency are very harmful. We still have sacred lands, 
just off our reservation which have not burned, but remain under 
threat.
    These fires will likely create a major shift in the nature of the 
Santa Clara Canyon's ecosystem. We are not exactly sure what that shift 
might look like. In the study of the Greater Yellowstone Ecosystem, the 
authors predicted ``fewer dense forests and more open woodland, grass 
and shrub vegetation, with forests becoming younger, the mix of tree 
species changing and some forests failing to regenerate after repeated 
fires. This would affect the region's wildlife, hydrology, carbon 
storage and aesthetics.''
    Of course, as the fires create a fundamental change in the Canyon's 
ecosystem, the affect of climate change and the nature of future fires 
will be changed, making both predictions and natural resource 
management even more difficult.
    There is a risk that warming alone is likely to lead to a decline 
in suitable habitat for the indigenous tree species of the Canyon and 
the projected increase in frequency and severity of wildfires could 
accelerate that process to a tipping point at which the trees may no 
longer regenerate. Theoretically, with the change in climate other 
species adapted to the new climate would move in. However, we do not 
know how long that will take, nor whether any such species actually 
exist, or what the forest would look like after such hypothetical 
species establish themselves. In the end, there is great uncertainty 
regarding how the Canyon's ecosystem will be transformed. Predictions 
depend on which climate model is chosen, for example, and how accurate 
that model ultimately proves to be.
             mitigating the risk of catastrophic wildfires
    Santa Clara has a large forestry department, numbering some 40 
personnel. This department is widely regarded as outstanding. Santa 
Clara fire crews and equipment were assigned and on the front lines 
fighting the Las Conchas Fire. We have a dedicated commitment to the 
maintenance and restoration of healthy forests on, around and adjacent 
to the Pueblo. In the management of our own resources, we have worked 
to ensure against the threat of forest fire. And yet, in the last 
decade we have faced four forest fires that have threatened our 
forests--the Oso, Cerro Grande, South Fork and Las Conchas fires--and 
none of them originated on our lands. Although fate and climate change 
play their part, we have suffered horrible consequences largely due to 
the failure of others to properly guard in some fashion against causing 
a fire.
    For the last several years, Santa Clara has been actively working 
with the U.S. Forest Service, the BIA and others in an effort to 
establish a forest management plan and program that would have 
prevented this catastrophe. This effort has involved numerous meetings 
in New Mexico and several trips to Washington. In particular, Santa 
Clara was working on establishing a partnership under the Tribal Forest 
Protection Act with the Forest Service to begin a long-term project to 
address the health of the Forest Service lands around the Pueblo. We 
were also seeking to assure that if the Valles Caldera, which is 
adjacent to the reservation, was transferred to the National Park 
Service, that any agreements we had reached would be honored in the 
transfer and new agreements could be put in place with the new 
administrators.
    We know that these efforts would have eventually succeeded given 
enough time, but we ran out of time. We saw in the Las Conchas Fire 
that where the Santa Clara had completed work on fuel breaks the fires 
was stopped. In an area where the Santa Clara Pueblo has had 80% of its 
forested land base burn since the Cerro Grande fire, every sliver of 
green timber makes a difference to stabilizing soil. Nonetheless, in 
the ten years since the Cerro Grande fire, Santa Clara has planted 
nearly 1.5 million trees, most of which were burned in the Las Conchas 
fire, destroying the Pueblo's great labor of restoration of the past 
decade. Despite our full awareness of the threat, and our efforts to 
enter into partnerships and seek funding to address the threat, we ran 
out of time. Nevertheless, we still hope these partnerships will enable 
Santa Clara to play a significant role in the restoration and 
rehabilitation of the Forest Service lands around our current 
reservation. We also look to put together a forest management law that 
will protect our forests and which we think should influence the 
management of the forests around us, which have posed such a threat to 
our lands.
      providing for tribes to seek a federal disaster declaration
    Because only a state governor can set the process into motion for a 
Federal disaster declaration, we would ask this Committee to address 
why tribal governments, who have a direct government-to-government 
relationship with the United States, must go through state governors to 
request Federal disaster relief. Such relief clearly falls within the 
Federal trust obligation and has the potential to expedite disaster 
recovery assistance. We would therefore urge this Committee to support 
legislation that allows a tribe to directly request this relief when it 
is needed. In particular, I would draw your attention to S. 2283, which 
would provide this authority.
 federal resources for both short-and long-term planning and recovery 
                                efforts
    The health of our community, and that of many other communities 
from the Inter-Mountain West, will turn on developing a greater 
understanding of the affect of climate change, as well as ways to both 
mitigate its consequences and engage in effective restoration where 
those consequences, such as the Las Conchas Wildfire, have already 
occurred with devastating effects.
                               conclusion
    Never again in our lifetime will we see our traditional and 
treasured homeland and spiritual sanctuary, the Santa Clara Canyon, as 
we have known it. It will take generations for our community and lands 
to recover from the devastation of this fire and, because of climate 
change, it is not clear what that future will look like. But this is 
our only homeland; it is the place we have been entrusted with since 
time immemorial. While we intend to devote the resources we can to the 
healing of our land and the protection of our community we do not have 
the resources to do it alone. We turn in this hour of need to our 
Federal trustee and ask for your sustained assistance in addressing 
this calamity and assuring the remediation of our sacred homeland with 
a long-term perspective on how this can be done during a period of what 
now appears to be almost inevitable rapid climate change.

    The Chairman. Thank you very much, Governor. We all express 
our sadness about all the damage that's been done there in 
Santa Clara Pueblo. Again, you were very generous in giving me 
a tour of it last year which I appreciated.
    We'll continue to work to try to have the Federal 
Government be responsive to the problem.
    Dr. Allen, why don't you go right ahead and give us your 
views on the whole set of issues that we're talking about this 
morning.

STATEMENT OF CRAIG D. ALLEN, U.S. GEOLOGICAL SURVEY, DEPARTMENT 
                        OF THE INTERIOR

    Mr. Allen. Thank you.
    Thank you and good morning, Chairman Bingaman.
    I'm pleased to be here today to discuss an important set of 
issues facing the Intermountain West, the emerging impacts of 
climate change on drought, forest stress, wildfire and 
ecosystem change.
    My name is Craig Allen. I am a Research Ecologist with the 
Fort Collins Science Center of the U.S. Geological Survey. I'm 
also the Station Leader of the Jemez Mountains Field Station 
based at Bandolier National Monument here in Northern New 
Mexico where I've been doing field work since 1982.
    My research is focused on the ecology and environmental 
history of the Southwestern United States working with many 
colleagues on intensive local studies that also address 
regional and global level issues. My testimony today presents 
information from a variety of sources in the scientific 
literature with details as provided in the written testimony. 
My focus will be on the Southwest, particularly including 
observations from my home landscape in the Jemez Mountains, 
just left of here on the other side of the Rio Grande.
    I hope to leave you with two main messages.
    First, there's a high level of scientific confidence that, 
as a result of drought impacts, coupled with warmer 
temperatures, forests in the Southwest are at an increasing 
risk of severe wildfire and tree mortality.
    Second, currently observed trends are indicative of the 
early stages of ecosystem re-organization in response to 
climate stress and land management practices.
    The Southwest U.S. is one of the best places in the world 
to determine the close linkages between climate, vegetation and 
fire using multiple lines of strong evidence that extend back 
thousands of years. Historic observation of charcoal records 
and tree ring studies and fire scars all show that climate has 
long synchronized by our activity across the Southwest with 
more fire in dry, warm years and dry, warm temperatures. Prior 
to the 1900s frequent, low severity surface fires dominated in 
the Ponderosa pine and drier mixed conifer which are so 
extensive in the Southwest. High severity crown fires also 
occurred historically in smaller portions of the Southwest, 
notably in high elevations in the spruce fir forest.
    More recently Southwest forest and fire patterns also have 
responded to changes in human behaviors. Active fire 
suppression over the past century has caused formally open 
forests across the Southwest to become relatively dense for 
fuel structures that now have the support of widely spreading, 
relatively explosive forest fires.
    In Figure 1, the first figure up here, I'll be referring to 
now. With the onset of drier and warmer conditions since 1990 
the Southwest has seen major increases in forest disturbances. 
For example, between 1984 and 2008, 18 percent of the forests 
in this region were affected by significant tree mortality from 
combinations of drought stress, bark beetles, which are shown 
in the orangish pattern and from wildfire, which are the red 
areas. This does not take into account the record wildfires 
which has affected the Southwest in 2011 and 2012. These are 
from data from 2000.
    The scale of these forest disturbances certainly is 
unprecedented in the Southwest since the start of record 
keeping began around 1900.
    Increasingly extensive, high severity fires and drought 
induced tree mortality also have emerged elsewhere across the 
West and in many other parts of the world.
    May I have the second slide, please?
    For example, the first global imaging of drought and key 
induced tree mortality, recently documented many examples of 
forest die off in all major forest types worldwide from 
tropical rainforests in the Amazon to the spruce forests in 
Canada and the all forest types in between.
    Also, experimental results clearly show that tree mortality 
is sensitive to warmer temperatures.
    Dr. Park Williams, a colleague at Los Alamos National 
Laboratory, is leading new research that actually was accepted 
just today. He just got the news this morning that this 
article, that this research, the first article, has been 
accepted into the Journal of Inter Climate Change. 
Demonstrating that warming temperatures could drive more stress 
in the Southwest to unprecedented levels by the 2040s which 
likely would render large areas of current forest climatically 
unsuitable for the present dominant tree species.
    Could you go to the third figure, please?
    In addition, studying these recent observations document 
the risks of post fire conversions from forest to non-forest 
ecosystems in the Southwest. These conversions can be caused by 
large, high severity fire patches where essentially all 3 seed 
sources are killed across thousands of acres. This can allow in 
some cases, shrubs to achieve dominance before trees can re-
establish.
    The photograph you're looking at here is taken from the 
south end of the day one run of the Los Conchas fire last 
summer. There's not--there's essentially not a live tree in the 
entire field of view. The level of EPIN, I've seen a lot of 
fires, but I've never seen anything quite like that part of the 
world of this afterwards. In fact we don't know what will come 
next in these giant sites.
    We can go to the last slide.
    The Chairman. Let me just ask. This was taken at the time 
of the fire a year ago. Can you tell anything, so far, as to 
whether or not trees are going to come back?
    Mr. Allen. I was out there a week ago, Senator. I could 
have--if we had had more opportunity for photographs actually, 
I could have taken a repeat photo. That tree has toppled 
actually, the dead tree there. I could have shown you a repeat.
    There is still essentially almost nothing. There may be one 
or 2 percent vegetation covering on that side. The only thing 
that's coming back so far, substantively, are a few grassy 
plants and some of the shrubs that are starting to re-sprout.
    But in terms of tree seed sources the issue is that these 
trees require seed trees to survive. There are none close to 
this location so it will be a while, which is actually the 
point then of this next picture. Thank you.
    Which does show two photographs of a site, oh about 8 miles 
from the first site which was also burned in the Los Conchas 
fire. It was actually burned in two fires, the first fire in 
1996, the Dome fire and about a third of the area. It had been 
a dense pine forest prior to the Dome fire in 1996. About 30 
percent of that area had come back as dense shrub covering.
    This is a photograph taken just a week after the Los 
Conchas fire, the top photograph, a week after the Los Conchas 
fire came through. The shrubs have been burned down to the 
ground. You can't even tell they were there. They cooked the 
Ponderosa Pine trees that had survived the first fire. So all 
of those trees you can see there are dead.
    The photograph below taken from the same location just a 
couple of weeks ago, so 1 year post fire, shows all that green 
are the shrubs re-sprouting. You can see what we essentially 
have is a shrub field now. The shrubs go as far as we can see. 
The trees, including the seed sources for the future have been 
eliminated almost entirely from an area of many thousands of 
acres there by this combination of the two fires.
    All of these recent trends are evidence that we may already 
be reaching tipping points of forest ecosystem change, changes 
which are new to the historical era. Despite these recent 
trends and emerging risks there are a variety of forest 
management approaches available to buy time for our forests. 
For example through combinations of mechanical tree harvesting 
and managed fire treatments to reduce forest stand densities 
and hazardous fuel loadings. It also reduces the amount of 
water stress among the trees if there's fewer trees competing 
for our increasing limited water.
    In summary, forests as we know them today in the Southwest 
are at risk from amplified tree mortality and high-severity 
fire due to increasing drought and heat stress. The recent 
increases in regional forest drought stress, the greater extent 
and severity of forest disturbances and the lack of post-
disturbance tree regeneration on some sites, all suggest that 
if modeled climate projections of a warmer and drier Southwest 
come to pass we can expect to see regional forest ecosystems 
change beyond the observed patterns of the last few centuries. 
Nonetheless, forest management practices can improve forest 
resistance and resilience to climate stressors and associated 
disturbances.
    Thank you again for the opportunity----
    The Chairman. Thank you.
    Mr. Allen. To testify here today.
    [The prepared statement of Mr. Allen follows:]

     Prepared Statement of Craig D. Allen, U.S. Geological Survey, 
                       Department of the Interior
    Good morning Chairman Bingaman. I am pleased to be here today to 
discuss an important set of issues facing the intermountain West--the 
emerging impacts of climate change on drought, forest stress, wildfire, 
and ecosystem change.
    My name is Dr. Craig D. Allen. I am a research ecologist with the 
Fort Collins Science Center of the U.S. Geological Survey. I am also 
the Station Leader of the Jemez Mountains Field Station based at 
Bandelier National Monument here in northern New Mexico, where I have 
conducted ecological fieldwork continuously since 1982. My research 
largely has focused on the ecology and environmental history of 
Southwestern landscapes, working with networks of colleagues on 
intensive local landscape studies that scale up to address regional and 
global-level issues. My testimony today will present information from a 
variety of sources in the scientific literature, with a focus on the 
Southwest, and particularly including observations from my home 
landscape of the Jemez Mountains.
    The messages I hope to leave with you are these: There is a high 
level of scientific confidence that, as a result of drought impacts 
coupled with warmer temperatures, forests in the Southwest are at 
increasing risk of severe wildfire and tree mortality. Currently 
observed trends are indicative of early-stage ecosystem reorganization 
in response to climate stress and land management practices.
    Recent climate trends of warming and drying conditions have 
corresponded to major increases in the extent and severity of forest 
die-off in the Southwest. The close linkages among patterns of climate, 
tree growth and mortality, and fire are particularly well-documented in 
the scientific literature for this region, using multiple lines of 
strong evidence that extend back many thousands of years. This evidence 
includes information unlocked from the tree-rings of ancient wood that 
records past patterns of precipitation, temperature, stream flow, tree 
growth, and fire; plant pollen, other plant remains, and charcoal 
deposited in layers of sediment at the bottoms of lakes and bogs; and 
plant macrofossils and pollen preserved in the middens, or waste heaps, 
of ancient packrat nests.
    Given that substantially warmer temperatures and greater drought 
stress are projected for the Southwest in coming years (Seager and 
Vecchi 2010; Gutzler and Robbins 2010), we should expect even greater 
increases in mortality of drought-stressed trees, high severity fire 
(Williams et al. 2010), and ultimately conversion of current forests 
into different ecosystems, ranging from grasslands and shrublands to 
new forests dominated by different tree species (Williams and Jackson 
2007; Jackson et al. 2009). Increasingly frequent and severe droughts 
and fires favor plant life-forms that can survive above-ground stem 
dieback and fire damage by resprouting from below-ground tissues. Many 
grass and shrub species can do this. After high severity fires, 
successful regeneration of the main tree species in the Southwest 
primarily depends upon the local survival of enough mother trees to 
serve as seed sources.
    There are several studies and recent observations that document the 
risks of post-fire type conversions from forest to non-forest 
ecosystems (Barton 2002, Savage and Mast 2005; Goforth and Minnich 
2008). These conversions can be caused by the ever larger, high-
severity fire patches where essentially all tree seed sources are 
killed across tens of thousands of acres, as observed in some recent 
fires (Fig. 1).* This greatly limits the rate of recolonization by some 
of the most common tree species such as pinon pine, ponderosa pine, and 
Douglas-fir, allowing dense grasslands or shrublands of resprouting 
species to achieve dominance before trees can re-establish. It is also 
beginning to be observed that once large areas of resprouting shrubs, 
like Gambel oak, become mixed in and around surviving post-fire conifer 
tree populations, a hot reburn through the shrubs can then kill nearly 
all of those adult survivors. Tree seed sources are thereby eliminated 
in sequential fashion (Fig. 2). The growing extent and severity of 
recent forest disturbances in this region, and the lack of tree 
regeneration on some sites after disturbances, are evidence that we 
already may be reaching tipping points of forest ecosystem change, 
changes which are new to the historical era.
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in committee files.
---------------------------------------------------------------------------
    Similar patterns of recent climate-amplified tree mortality and 
fire activity also are occurring more broadly in western North America, 
as well as in many other portions of the world. For example, a group of 
20 co-authors from around the world recently conducted the first global 
overview of drought and heat-induced tree mortality (Allen et al. 
2010), which documented many examples of extensive forest die-off in 
all major forest types worldwide, from tropical rainforests in the 
Amazon to African savannas and Mediterranean pine forests to boreal 
forests in Canada and Alaska (Fig. 3). But while we observe that all 
major forest types worldwide are vulnerable to high levels of tree 
mortality during periods of drought and heat stress, we cannot yet 
determine if forest die-off is increasing overall at a global scale due 
to the absence of long-term baseline information on global forest 
health conditions, and the continued absence of a globally coordinated 
observation system (Allen et al. 2010). A recent experiment on pinon 
pine, however, showed unequivocally and unsurprisingly that when warmer 
temperatures accompany drought, trees die much faster (Adams et al. 
2009). This is to say, there is not only observational evidence that 
tree mortality is on the rise, but also experimental results showing 
that mortality is temperature sensitive. As climate continues to warm 
we can expect more tree die-off events like those we have recently 
observed. Changes in climate and human land uses also are driving 
increasingly severe fire activity in many regions around the world 
(Bowman et al. 2009 & 2011, Pechony and Schindell 2010, O'connor et al. 
2011).
    Every plant species has a particular range of climatic conditions 
in which it can grow, so as local climates, and associated disturbances 
like fire and beetle outbreaks, shift beyond the tolerance limits of 
the currently dominant species, today's dominant plants will die, 
thereby opening space for new species that can tolerate the altered 
climate conditions. There is, however, a major gap in scientific 
information about precisely how much drought and heat stress various 
tree species can tolerate before dying. In other words, scientists do 
not yet know how to ``kill'' trees in models with the accuracy 
necessary to project how much change in climate conditions they can 
tolerate before widespread mortality occurs (McDowell et al. 2008 & 
2011, Allen et al. 2010). Our understanding of climate change risks to 
forests in this region is enhanced by cutting-edge experimental 
research on the physiological effects of drought and heat stress on 
trees which is being conducted locally by Dr. Nate McDowell of Los 
Alamos National Laboratory. Dr. Park Williams, another colleague also 
at Los Alamos National Laboratory, is leading new research that 
demonstrates the risks that warming temperatures could drive forest 
drought stress in the Southwest to unprecedented levels by the 2040's, 
which likely would render large areas of current forest climatically 
unsuitable for their present dominant tree species. Park's work also 
shows strong correlations between forest drought stress and area 
affected annually by high-severity fires and bark beetle infestations 
in this region, consistent with known climate-disturbance linkages in 
western North America (Westerling et al. 2006, Raffa et al. 2008, 
Littell et al. 2009, Bentz et al. 2010, Hicke et al. 2012).
    Given projections of substantial further warming and increased 
drought stress for the Southwest in the coming decades (e.g., Seager 
and Vechhi 2010), the recent ramp-up in the extent and severity of 
climate-related forest disturbances (Breshears et al. 2005, Westerling 
et al. 2006, Raffa et al. 2008, Allen et al. 2010, Williams et al. 
2010) may indicate that forests in this region are now approaching 
tipping points such that we are beginning to see substantial 
reorganization of ecosystem patterns and processes into new 
configurations (Williams and Jackson 2007, U.S. Climate Change Science 
Program 2009, Jackson et al. 2009, Barnosky et al. 2012).
    If the climate projections of rapid warming for the Southwest are 
correct, then by the middle of the twenty-first century our 
Southwestern forests as we know them today will experience significant 
vegetation mortality and can be expected to reorganize with new 
dominant species (Littell et al. 2009, Bentz et al. 2010, Williams et 
al. 2010).
                         long-term perspective
    The Southwest United States has an abundance of paleo-ecological 
records that make this one of the best places in the world to determine 
past patterns of climate, vegetation, and fire, using multiple lines of 
evidence. For example, scientists here in New Mexico have used 
information locked in the tree-rings of ancient wood to precisely 
reconstruct past patterns of precipitation, temperature, stream flow, 
drought stress, and tree growth and death going back as much as 2000 
years (Swetnam et al. 1999 & 2011, Swetnam and Betancourt 1998, Allen 
et al. 1998 & 2008, Brown and Wu 2005, Fule et al. 2012, Falk et al. 
2011, Margolis et al. 2011, Roos and Swetnam 2012, Touchan et al. 2010, 
Woodhouse et al. 2010). Even older evidence can go back many thousands 
of years in the form of plant pollen, other plant remains, and charcoal 
deposited in layers of sediment at the bottoms of lakes and bogs (e.g., 
Weng and Jackson 1999, Anderson et al. 2008a). These sediment records 
reveal how today's high mountain tree species like spruce and fir were 
growing at much lower elevations during the colder climate of the last 
ice age, before moving upslope as the world's climate moved into the 
current warmer interglacial period about 11,000 years ago (Anderson et 
al. 2008a,b). Similarly, plant macrofossils preserved in the middens of 
ancient packrat nests directly show how much, and how fast, the ranges 
of plant species have expanded and contracted geographically, moving 
north and south, and locally upslope and downslope, in response to 
climate variations (Betancourt et al. 1990). These pollen and 
macrofossil records also show that past vegetation communities often 
consisted of combinations of plant species unknown today (Betancourt et 
al. 1990, Weng and Jackson 1999, Anderson et al. 2008a). For example, 
midden and pollen evidence of ponderosa pine is almost non-existent in 
the Southwest during the last ice age, but with the early post-glacial 
warming and the associated development of our summer monsoon climate 
after about 10,000 years ago this pine expanded across the region to 
eventually become a dominant forest species (Betancourt et al. 1990, 
Allen et al. 1998, Weng and Jackson 1999).
    During this same time period, the abundance of charcoal deposited 
in lakes and bogs increased markedly across the region (Anderson et al. 
2008a,b, Allen et al. 2008), reflecting increased frequency and extent 
of fire activity on Southwestern landscapes, which likely also favored 
the expansion of fire-dependant species, like ponderosa pine (Weng and 
Jackson 1999). Charcoal records over the past 1,000 years in the West 
and Southwest generally show the modulating effects of climate on fire 
activity, with modest increases in charcoal concentrations during the 
Medieval Warm Period, and also some significant decline during the 
Little Ice Age. Both charcoal and tree-ring fire scar records from 
ancient giant sequoia groves in the Sierra Nevada of California 
(Swetnam et al. 2009) and from across the West (Marlon et al. 2009 & 
2012, Power et al. 2012) show similar patterns. Overall, the world's 
greatest concentration of tree-ring studies of tens of thousands of 
precisely dated fire scars from hundreds of forest sites across the 
Southwest reconstruct high-resolution spatial and temporal patterns of 
fire extending back about 500 years, showing high levels of frequent 
and widespread fire activity that were closely tied to climate patterns 
(Swetnam et al 1999 & 2011, Falk et al. 2011).
    These pre-1900 fire-climate relationships are consistent with those 
that we see today (Swetnam and Betancourt 1998, Swetnam et al. 1999), 
with much higher levels of fire activity in warm dry years. For about 
two-thirds of the fire scars we can even date the season that the fire 
scar formed, allowing us to demonstrate that most pre-1900 fire spread 
occurred in the dry spring and early summer period, just as today, 
before the July onset of summer rains. Tree-ring reconstructions 
demonstrate that frequent, low-severity surface fires dominated the 
pre-1900 fire activity in the widespread ponderosa pine and drier 
mixed-conifer forests that predominate in much of the Southwest 
(Swetnam et al. 2009). Climate synchronized fire activity across the 
region, with large portions of most Southwestern mountain ranges 
burning in some extreme fire years (1748, for example, is the biggest 
fire year known in the Southwest [Swetnam et al. 1999]).
    It is important to note that there is a great diversity of forest 
and fire patterns across the Southwest. For example, high-severity 
stand-replacing fires also occurred in the less extensive wetter mixed-
conifer and high-elevation spruce-fir forests in the region (e.g., 
Margolis et al. 2011), although not as much research has been done on 
such fire regimes in the Southwest. Tree-ring studies also show that 
major climate relationships with tree establishment, growth, and death 
have been rather consistent for the past 1,000 and more years. That is 
to say, forest trees in the Southwest grow better and reproduce in 
pulses during wetter periods, whereas during periods of extended warm 
drought trees experience high levels of drought stress and mortality 
(Swetnam and Betancourt 1998, Allen and Breshears 1998, Swetnam et al. 
1999, Brown and Wu 2005, Falk et al. 2011). Finally, the charcoal 
sediment records show relatively high levels of fire activity in the 
Southwest for most of the past 9,000 years. Charcoal sediment records 
for the last century, however, show an anomalous deficit of fire 
activity across both the Southwest (Anderson et al. 2008a, Allen et al. 
2008) and West as a whole (Marlon et al. 2012, Power et al. 2012). 
Similarly, the abundant tree-ring reconstructions of Southwest fire 
histories clearly demonstrate that previously frequent and widespread 
surface fire activity ceased across the region between 1880 and 1900. 
This reduced fire activity occurred because of man-made rather than 
climatic reasons.
                       land management practices
    Over approximately the past 150 years regional forest landscapes 
and fire regimes have responded both to changes in human land use and 
land management and to patterns of climate variability. The prehistoric 
pattern of widespread, high-frequency surface fire regimes across the 
Southwest initially collapsed in the late 1800's, because with the 
entry of railroads to this region there was a buildup of herds of 
domestic livestock that interrupted the former continuity of the grassy 
surface fuels by widespread overgrazing, trampling, and trailing 
(Swetnam et al. 1999). The suppression of surface fires by overgrazing 
then morphed into active fire suppression and exclusion efforts by land 
management agencies in the early 1900's, which has continued with ever-
increasing effort and expenditure to the present (Pyne 1982).
    With the circa-1900 change in surface fire regimes in many 
Southwestern forests, the multitude of young trees that established 
were thinned out by frequent surface fires which had favored relatively 
open, grassy forest conditions. As a result, woody plant establishment 
exploded into the 1900s, particularly during several favorable wet 
climate windows for tree regeneration and growth. Twentieth century 
fire suppression resulted in a general pattern of forest and woodland 
expansion into grasslands and meadows, along with increases in the 
densities of many (although not all) Southwestern forests and 
woodlands. For example, in some common forest types, like various types 
of ponderosa pine and dry mixed-conifer forest, tree densities commonly 
increased ten-fold or more, often from less than 100 trees per acre to 
over 1,000 trees per acre.
    In the absence of frequent surface fires, such increases in forest 
density also were accompanied by huge increases in surface fuel loads 
and the widespread development of understory thickets of small, 
suppressed trees. These ``ladder fuels,'' as they are known, allow 
surface fires to easily spread upward into tree canopies. Thus with 
active fire suppression over the past century the former fire-
maintained mosaic of open forests across diverse Southwest landscapes 
became a uniform blanket of dense forests with fuel structures that 
could support the initiation and spread of explosive high-severity 
canopy fires. Generally wet conditions in the Southwest from 1978 
through 1995 fostered rapid tree growth and further forest 
``woodification,'' but the wet conditions also helped keep wildfires in 
check. Thus by the mid-1990s many southwestern forests likely were near 
their maximum possible densities and levels of biomass accumulation at 
both landscape and stand scales.
    The last 20 years have seen more severe fires and drought-induced 
tree mortality, with associated bark beetle outbreaks, in Southwestern 
forests and woodlands, with 18% of Southwestern forests affected by 
significant tree mortality from combinations of drought stress, bark 
beetles, and high-severity wildfire between 1984 and 2008 (Fig.4, 
Williams et al. 2010). (And this does not take into account the record 
wildfire years in 2011 and 2012.) The scale of these forest 
disturbances certainly is unprecedented in this region since historic 
record keeping began around 1900, almost certainly is unprecedented 
since the megadrought of late 1500's (Swetnam and Betancourt 1998), and 
in the case of high severity fire patches in southwestern ponderosa 
pine forests quite possibly is unprecedented since before modern 
climate, vegetation, and fire regime patterns established 6,000 years 
ago. Similar patterns of increasingly extensive high-severity fires and 
drought-induced tree mortality also have emerged elsewhere across the 
intermountain West (Westerling et al. 2006, Raffa et al. 2008).
    Despite these recent disturbance trends and emerging risks for 
forests in the Southwest, there are a variety of forest management 
approaches available to buy time for our forests through increasing 
their resistance and resilience to growing climate stress to restore 
and maintain historically sustainable patterns of forest structural 
conditions, species compositions, landscape-scale patterns of fire 
hazard, and ecological processes (Sisk et al. 2006, Fule 2008, Finney 
et al. 2005 & 2007, Ager et al. 2010, Stephens et al. 2012). For 
example, by using combinations of mechanical tree harvesting and 
managed fire treatments to reduce forest stand densities and hazardous 
fuel loadings, foresters can reduce excessive between-tree competition 
for water and other resources, thereby concurrently reducing overall 
forest drought stress and risk of high-severity fires, and at the same 
time restore historical forest ecological conditions that we know were 
sustainable for at least many centuries prior to 1900 (Swetnam et al. 
1999, Allen et al. 2002, Fule 2008, Stephens et al. 2012).
    In summary, forests as we know them today in the Southwest are at 
risk from amplified tree mortality and high-severity fire due to 
increasing drought and heat stress. The recent increases in regional 
forest drought stress, the greater extent and severity of forest 
disturbance, and the lack of post-disturbance tree regeneration on some 
sites all suggest that if modeled climate projections of a warmer and 
drier Southwest come to pass we can expect to see regional forest 
ecosystems change beyond the observed patterns of the last few 
centuries. Nevertheless, forest management practices can improve forest 
resistance and resilience to climate stressors and associated 
disturbances.
    Thank you again for the opportunity to testify here today. I would 
be happy to answer any questions you may have.

    The Chairman. No, thank you very much for your testimony. I 
appreciate it very much.
    Next is Dr. Nate McDowell with Los Alamos National 
Laboratory. Thank you for being here.

STATEMENT OF NATHAN MCDOWELL, STAFF SCIENTIST AND DIRECTOR, LOS 
    ALAMOS ENVIRONMENTAL RESEARCH PARK, LOS ALAMOS NATIONAL 
                   LABORATORY, LOS ALAMOS, NM

    Mr. McDowell. Thank you, Chairman Bingaman.
    You can put the first slide up if you wish.
    I'm honored to speak to you today regarding current and 
future impacts of climate change on the Intermountain West. I 
am Nate McDowell, staff scientist at the Earth and 
Environmental Sciences Division at Los Alamos National 
Laboratory. My team at Los Alamos is the global leader in the 
study of how vegetation dies in relation to drought. We also 
have a strong research focus on how vegetation mortality feeds 
back to influence the earth's climate.
    Our research is aided by the massive amounts of mortality 
our local forests have experienced in the last decades. In 
other words we live in dead forests. That photo, for example, 
is near where we live in Los Alamos.
    I will focus the majority of my testimony on forest 
mortality associated with drought and insects. I will leave the 
discussion of fire to Dr. Craig Allen and the other invited 
speakers. Although, I'd be happy to comment on that later.
    Insect mediating mortality during and after drought kills 
approximately twice as many trees as fire does in the 
Intermountain West.
    Put the next slide up, please.
    The Chairman. Could you make that statement again?
    Mr. McDowell. Based on two studies, insect mediating 
mortality during or after drought kills approximately twice as 
much surface area as fire.
    The Chairman. OK.
    Mr. McDowell. In the Intermountain West.
    As Dr. Allen highlighted there is strong scientific 
evidence for rising rates of vegetation mortality during and 
after drought. Mortality is accelerating and will almost 
certainly continue to accelerate in the upcoming decades. The 
negative effect of atmospheric warming appears to outweigh the 
benefits of higher atmospheric CO<INF>2</INF>.
    We are now experiencing what is commonly labeled a climate 
change type drought. Warmer temperatures raise evaporative 
demand, or how dry the air is, driving greater movement of 
water through forests to the atmosphere. Thus for every inch of 
precipitation a larger fraction of that water is extracted by 
the warmer moisture out of the air leaving less to the forests.
    Water loss from plants occurs through tiny holes in the 
leaves called stomata. If the water loss is too great then the 
plants desiccate, dry out and die, similar to people without 
water.
    Photosynthesis also occurs through the stomata. So if a 
plant closes the stomata to avoid drying out, which is the 
common response, that means they can't eat, similar to a person 
without food.
    The combination of these stressors results in much 
increased vulnerability of forests to insect attack.
    Since most forest plants shut their stomata and stop 
photosynthizing during drought rising atmospheric 
CO<INF>2</INF> has little benefit. In other words it's like if 
you have a million dollars in your bank account but your ATM 
doesn't work. It's not actually useful to the plant.
    In addition warming accelerates the productivity of 
pathogen and insect communities in much of the Intermountain 
West. Therefore, what we have is compounding impacts on the 
forest due to the stress and promotes greater rates of forest 
mortality that has occurred in recorded history.
    Throughout the earth's history vegetation mortality has 
occurred during periods of rapid temperature and moisture 
shifts. However the warming we experienced in the past century 
is at least twice as fast as any in at least the past 
millennium. It is forecasted by the Intergovernmental Panel for 
Climate Change to accelerate far more in the next upcoming 
century than it has on record in the past.
    The confidence in these predictions is high. These 
predictions suggest that the average climate in the year 2050 
will be hotter and drier than that of the mega droughts of the 
1200s and 1500s that caused the mass migration of ancestral 
pueblo into the widespread forest mortality throughout the 
Southwestern USA. Thus even if precipitation remains unchanged 
in the future the increasing evaporative demand due to warming 
will cause the forest to experience future drought conditions 
that are nearly guaranteed to cause widespread mortality.
    Forest mortality induces a strong, positive feedback on 
climate warming due to the transfer of carbon stored in the 
forest to the atmosphere.
    If you could show the next slide, please.
    I'll just highlight if you thought that was a lot of 
mortality in the USA take a look at British Columbia here.
    Photosynthesis by forests store approximately 33 percent of 
global anthropogenic CO<INF>2</INF> emissions annually and the 
forests themselves contain approximately 55 percent of all 
carbon stored on land globally. Dead forests in contrast have 
greatly reduced rates of photosynthesis and hence cannot remove 
carbon from the atmosphere. Because dead trees decompose, they 
release large amounts of carbon back to the atmosphere.
    For example, British Columbia's carbon loss, shown in the 
slide above, from a drought and insect attack in the early 
2000s was equivalent to--I believe--5 years of Canada's 
transportation sectors, CO<INF>2</INF> emissions. Therefore it 
influenced their national carbon policies.
    Similarly the loss of forests in Western North America due 
to non-fire mortality alone is projected to equal 6 years of 
the United States fossil fuel emissions.
    In Northern New Mexico the loss of forest carbon over the 
last decade was approximately equivalent to 25 percent of New 
Mexico's fossil fuel emissions. Thus continued forest mortality 
from both fire and drought constitutes a positive forcing on 
climate warming by injecting more CO<INF>2</INF> into the 
atmosphere. This is commonly referred to as the potential to 
dew point.
    More evidence suggests that no forest is immune to drought 
induced mortality. We observed both a long elevation gradients 
in our local mountains in New Mexico as well as up the spine of 
the Rockies from Mexico to Canada that all forests appear to be 
dying at approximately similar rates and spatial magnitudes. It 
just happens first in the dry areas. But it still happens in 
the wetter areas.
    This is very concerning because there's far more carbon 
stored in these wetter, cooler forests. Thus, the mortality of 
these forests with high carbon stores causes a much greater 
release of CO<INF>2</INF> to the atmosphere. Drought and insect 
mortality along with wildfire induced mortality are the common 
drivers and common possible solutions.
    Dr. Allen has addressed those briefly. I'd be happy to 
address those more during the time for question and answer 
period.
    In conclusion there are strong scientific certainty that 
future droughts will promote the loss of forests in the Western 
United States. This will occur through both increased severity 
of drought stress upon forests and subsequent insect and 
pathogen attack and through wildfire. Without significant 
changes in the global energy portfolio and increased investment 
into sustainable forest management, the loss of forests in the 
Western United States is unavoidable.
    Thank you for the opportunity to appear before the 
committee.
    [The prepared statement of Mr. McDowell follows:]

 Prepared Statement of Nathan Mcdowell, Staff Scientist and Director, 
Los Alamos Environmental Research Park, Los Alamos National Laboratory, 
                             Los Alamos, NM
                              introduction
    Good morning Chairman Bingaman, Ranking Member Murkowski, and 
members of the committee. I am honored to speak to you today regarding 
current and future impacts of climate change on the intermountain west. 
I am Nate McDowell, staff scientist within the Earth and Environmental 
Sciences Division at Los Alamos National Laboratory, and director of 
the Los Alamos National Environmental Research Park. My team has 
published approximately 20 papers on vegetation mortality in relation 
to climate change. We are the global leaders in the study of how 
vegetation dies in relation to drought, both currently and in the 
future (Figure 1).* We also have a strong research focus on how 
vegetation mortality feeds back to accelerate warming of the earth. Our 
research is aided by the massive mortality our local forests have 
experienced in the last decade (Figure 2). Bark beetle-associated 
mortality during and after drought kills approximately double the 
amount of forests as fire in the intermountain west (J. Hicke 
unpublished results, Williams et al. in revision). With the exception 
of management implications, I will leave the discussion of drought and 
fire in this hearing to Dr. Craig Allen and the other invited speakers. 
The focus of my testimony today will be on the impacts of climate 
change on vegetation mortality and the associated carbon and climate 
consequences of vegetation death.
---------------------------------------------------------------------------
    * Figures 1-7 have been retained in committee files.
---------------------------------------------------------------------------
    My main message today is that there is strong scientific evidence 
for 1) rising rates of vegetation mortality during drought at the 
global scale and within the intermountain west, 2) forest mortality 
will continue to accelerate, despite CO<INF>2</INF>fertilization, and 
3) the consequences of forest loss to drought-associated mortality 
include but are not limited to a strong positive feedback on climate 
warming due to the transfer of carbon stored in forests to the 
atmosphere. There are multiple research and mitigation options that 
should be pursued in the very near future if we are to stem the tide of 
forest mortality and associated carbon release to the atmosphere.
    Vegetation mortality is rising in northern New Mexico, throughout 
the intermountain west, and globally (Figure 2-3, Raffa et al. 2008, 
van Mantgem et al. 2009, Allen et al. 2010, Peng et al. 2011, Hicke et 
al. 2012, Williams et al. in revision). The bulk of the evidence 
suggests this rise is a result of climate warming and in some 
ecosystems, forest management. It is most strongly correlated with 
rising air temperature (van Mantgem et al. 2009, Allen et al. 2010, 
Peng et al. 2011). There is a wide range of evidence to explain why 
rising temperature has, and will continue, to accelerate mortality of 
vegetation.
    Forest mortality will continue to accelerate. Everyone can 
understand the general idea that drought kills plants because of a lack 
of water. The details of the process of drought-induced mortality are 
relevant to expand upon within this testimony, however, because 
combining the current climate forecasts with the mechanisms by which 
climate causes plant stress paints an ominous picture for the future of 
forests in the intermountain west.
    Large-scale vegetation mortality events have occurred throughout 
the history of the earth. These events were typically associated with 
rapid changes in climate, in particular, rapid increases in temperature 
or decreases in moisture (McElwain and Punyasena 2007, McDowell et al. 
2011). The term ``rapid'' is important in this context, because the 
change in climate we are currently experiencing is more rapid than any 
in the geologic record.
    The rise in temperature from 1900 to 2000AD was approximately twice 
that of any other century going back to 750AD, and the forecasted 
temperature growth will four-to ten-fold more rapid by 2100 AD ( IPCC 
AR4).
    Warmer air holds more moisture, thus increasing temperature raises 
evaporative demand (Figure 4) and drives greater movement of water from 
forests to the air; this is called evapotranspiration. 
Evapotranspiration exacerbates the impact of droughts because for every 
inch of precipitation, a larger fraction of that water in the soil and 
plants is extracted by the moisture-hungry air, thus causing current 
droughts to induce greater stress upon plants than past droughts have 
caused (McDowell et al. 2008). This has been referred to as climate-
change-type drought (Breshears et al. 2005).
    The primary determinant of plant survival in the intermountain west 
is the supply and demand of water because in this region the supply is 
low relative to the demand. Plants move water to their leaves through a 
process similar to the movement of water in a straw: tension is placed 
upon the top of the straw by the dry air, thus pulling the water 
upwards from the soil and through the plants. Insufficient soil water 
or a large pull on the top of the straw can cause cavitation, or the 
formation of air bubbles in the straw. This blocks further water flow 
and if un-repaired, results in further decreases in water flow, a 
process we call hydraulic failure (Figure 5, McDowell et al. 2008, 
2011). Plants avoid this problem through closure of their stomata, or 
the tiny pores on their leaves that allow release of water and uptake 
of CO<INF>2</INF> into the leaf (i.e. photosynthesis), and thus they 
reduce the risk of hydraulic failure. However, stomatal closure means 
that no photosynthesis occurs. During this period of minimal 
photosynthesis they must rely on stored carbohydrates, akin to the fat 
stores of mammals, to stay alive and defend themselves against 
pathogens such as bark beetles. If drought is prolonged, this can 
result in carbon starvation, or the loss of carbohydrate stores, so 
that life cannot be maintained and defense against attack agents, such 
as beetles, may fail (Figure 5, McDowell et al. 2008, 2011). There is 
strong evidence that both hydraulic failure and carbon starvation are 
occurring throughout the intermountain west during the prolonged 
drought that has extended from 1996 through 2012.
    Increasing temperature has three additional impacts on vegetation 
survival. First, temperature is exponentially related to the loss of 
carbon through metabolism, so temperature rises can drive elevated loss 
of the carbohydrate stores needed to support life and fight off biotic 
agents such as bark beetles (Amthor 1994, Atkin et al. 2007, McDowell 
2011). Second, biotic agents such as bark beetles grow faster and 
achieve more generations per year with rising temperature. Thus attacks 
on trees by bark beetles increase with rising temperature both due to 
increasing tree stress and increasing beetle population size (Raffa et 
al. 2008). The net effect is that rising temperature increases the risk 
of vegetation mortality. Third, as described by Dr. Craig Allen, rising 
atmospheric demand due to temperature increase the rate of spread of 
fire.
    Forest mortality will continue to accelerate because evaporative 
moisture demand by the year 2100 will have increased approximately 34% 
from the 1950-2000 due to rising temperature (Figure 6a,b, Williams et 
al. in revision, CMIP3). This is extremely likely to force widespread 
vegetation mortality throughout western USA even if precipitation 
remains fairly steady (Figure 6c, d, Williams et al. in revision) with 
a simulated carbon loss by 2100 equal to six years of the United States 
fossil fuel emissions (Figure 7, Jiang et al. in review). There is very 
strong evidence that we are already witnessing the consequences of 
increased evaporative demand on widespread bark beetle outbreaks and 
forest fires since the late 1990s (Williams et al. 2010, in revision). 
Future projections suggest that the average climate in Southwestern USA 
will be a stronger drought than any of the last 1000 years, including 
the mega-droughts of the 1200's and 1500's that caused the mass-
migration of ancestral Puebloans and the widespread forest mortality 
throughout Southwestern USA (Figure 6). Thus, even if precipitation 
were to remain unchanged, the increasing evaporative demand due to 
rising temperature will cause the forests to experience future drought 
conditions that are nearly guaranteed to cause widespread mortality. In 
other words, increasing forest mortality over the next century is 
almost certainly going to occur in some regions of the world, including 
the intermountain west.
    Recent forest growth in response to CO<INF>2</INF> fertilization 
does not provide significant benefit to vegetation survival during 
severe drought (Franks et al. in revision). This is because the 
elevated CO<INF>2</INF> only benefits plants whose stomata are open to 
allow photosynthesis to occur; both low precipitation and high 
evaporative demand force stomatal closure, thus preventing 
photosynthesis. This has been shown in numerous observations and 
experiments (reviewed in Franks et al. in revision). Therefore, rising 
CO<INF>2</INF> does not prevent mortality during drought.
    Mortality from both fire and bark beetle/drought has numerous 
consequences on ecosystems including a strong feedback by which forest 
death leads to accelerated climate warming. Live forests store 
approximately 33% of anthropogenic CO<INF>2</INF> emissions annually 
and contain approximately 55% of carbon stored in terrestrial 
ecosystems (Bonan 2008). The loss of these forests to mortality and 
replacement vegetation with lower carbon storage such as shrubs (as 
described in Dr. Allen's testimony) reduces the ecosystems ability to 
extract CO<INF>2</INF> from the atmosphere, and furthermore, the 
mortality results in the release of large amounts of CO<INF>2</INF> 
from the decomposition of dead trees (Harmon et al. 1990, Hicke et al. 
2012). For example, British Columbia's carbon loss from drought/insect 
attack in the early 2000's was equivalent to six years of Canada's 
transportation sector CO<INF>2</INF> emissions and influenced national 
carbon policy (Kurz et al. 2008a, b). Similarly, the loss of forests in 
Western North America due to non-fire mortality alone is projected to 
equal six years of United States fossil fuel emissions (Figure 7, Jiang 
et al. in revision). In northern New Mexico, the loss of forest carbon 
in northern New Mexico over the last decade was equivalent to 25% of 
New Mexico's fossil fuel emissions. Thus, the continued growth of 
forest mortality from both fire and drought will drive a positive 
forcing on climate warming. The impacts of mortality on climate warming 
via CO<INF>2</INF> release are mirrored with similar impacts on 
hydrology and energy budgets, not to mention aesthetics, timber 
production, tourism and other ecosystem services provided by forests 
(Adams et al. 2010).
    Many people, scientists included, have assumed that primarily 
forests in drier systems, such as lower elevations or lower latitudes, 
are vulnerable to climate-change-type drought. We now know this 
assumption is incorrect. Recent work in my lab has observed two key 
results across elevation gradients within New Mexico's Jemez and Sangre 
de Cristo Mountains and up the spine of the Rockies from Mexico to 
Canada. In both studies, the more arid low elevation or low latitude 
forests die first, but wetter forests at higher elevations and 
latitudes followed suit a few years later with mortality of equal 
spatial magnitude. Perhaps more importantly, these wetter forests store 
far more carbon than more arid forests, thus the loss of the wetter 
forests causes a much greater release of CO<INF>2</INF> to the 
atmosphere (Jiang et al. in revision). Thus, no forest appears safe 
from rising temperature and more intense droughts, and thus we can 
expect widespread mortality and significant feedbacks to accelerate 
future climate warming.
    Recommendations: drought and insect mortality, along with wildfire 
induced mortality, have common drivers and common possible solutions. 
Rising rates of both of these forms of mortality are due in part to the 
declining moisture content of the forest that results from rising air 
temperature. The most effective, but most difficult solution is to curb 
the release of anthropogenic CO<INF>2</INF> to the atmosphere. The 
exclusion of fire since the arrival of livestock and the Smoky the Bear 
policy has caused the forests to become far denser than the historical 
average, allowing far more fuel to build up in the forests and thus 
promoting more fires and greater competition for scarce water. 
Sustainable forestry that lowers the fuel load and promotes more old-
growth characteristics is the only management option I can see that 
will mitigate the threat of continued growth of massive wildfires and 
insect outbreaks. Such thinning should emphasize removal of smaller 
trees to promote survival of tall trees that are more resistant to fire 
damage and to reduce competition for water and nutrients.
    In addition, I feel valuable long-term solution to this rising 
threat of forest loss due to climate change is education of society. 
Without knowledge of the current and potential future impacts, the 
common public can become unaware of the magnitude of what is occurring 
and will occur in the future. Lastly, we urgently need more research to 
understand why and where some trees die while others do not. This 
information is essential so that we can inform management and policy 
options to maximize the likelihood of forest survival, carbon storage, 
and the other ecosystem services our society values.
    In conclusion, there is strong scientific certainty that future 
droughts will promote the loss of forests in the Western United States. 
This will occur through both increased severity of drought stress upon 
forests and subsequent insect and pathogen attack, and through 
wildfire. Without significant changes in the global energy portfolio 
and increased investment into sustainable forest management, the loss 
of forests in the Western US is inevitable.
    Thank you for the opportunity to appear before the Committee
    Much of our work was made possible by the Laboratory Directed 
Research and Development Program, which makes it possible for the 
Laboratories to invest in cutting edge R&D that anticipates emerging 
national needs. Details of the LDRD program can be found at tri-
lab.lanl.gov.

    The Chairman. Thank you very much.
    Why don't we go ahead? Obviously there are lots of 
questions that need to be asked and answered.
    But Dr. Redmond, why don't you go ahead?

 STATEMENT OF KELLY T. REDMOND, REGIONAL CLIMATOLOGIST/DEPUTY 
  DIRECTOR, WESTERN REGIONAL CLIMATE CENTER, DESERT RESEARCH 
                      INSTITUTE, RENO, NV

    Mr. Redmond. OK. Thanks for the opportunity to speak here 
this morning. My present position is Regional Climatologist for 
the Western United States. So I cover the weather in western 
states and Alaska and Hawaii. I deal with climate issues of 
every sort ranging from the physical side to the way people use 
information about climate in those vocations.
    I didn't bring any visuals today. I just spent a week in 
Montana at my mom's house. I couldn't see the forest or the 
mountains because of the smoke and the same way coming back to 
Denver and into Reno, couldn't see the Sierra Nevada. I deal a 
lot with drought issues and just spent 3 days at the 
International Boundary and Water Commission down in El Paso 
dealing with drought issues on the Rio Grande and the Bravo 
River there.
    I decided to make 4 points in this presentation.
    First of all that aridity is going to persist and very 
likely to increase in the western states.
    Second, that the climate events and extremes are just as 
important as gradual change in the region.
    A third is that observations and monitoring are critical to 
response and adaptation.
    The fourth is we should not let this problem intimidate us 
too much despite what you keep hearing about it.
    So a drought to me represents an imbalance. If you think of 
a water checkbook we have a certain amount of income and a 
certain amount of outgo. When the outgo exceeds the income for 
long enough in an accumulated sense our buffers are going down 
and we start to see impacts.
    Now basically we think of drought as being defined by its 
impacts. We've seen a lot of drought in the western states over 
the last 13 years or so, since the U.S. drought monitor was 
instituted. Every year we've had drought of some sort. 
Sometimes border to border like in 2002 and we are in a pretty 
deep drought this year again.
    You've already heard the point made that we think of 
drought as being determined by precipitation but temperature 
and a few other variables like wind and humidity also play a 
role in droughtiness because they influence the demand side for 
water. Not all precipitation is equal. Cool precipitation is 
generally better than warm precipitation as a broad generality 
and if it warms up it sort of like getting less precipitation.
    Temperature in the west began to increase--I've looked at 
it over the last 120 years or so, began to increase around the 
mid 70s. It's risen by about two degrees Fahrenheit in that 
time. In the last 10 years or so it has kind of leveled off and 
it's even dropped in the last 3 or 4 years. We don't know the 
reason why.
    The models predict that this is going to continue to rise 
by probably another 4 to 6 degrees Fahrenheit during this 
century. Nighttime temperatures have gone up more than daytime 
temperatures. We don't know the reason for that.
    Precipitation, really, in the western states in general has 
exhibited no trend that I'm able to see. There is a change in 
the variability of precipitation in the year to year 
variability in about the mid 70s has been much more variable 
from year to year in the last 30 years or so compared to the 
previous 30 years. The projections are for precipitation to 
increase maybe 5 to 7 percent in the next 20 to 30 years or so 
along the Canadian border and to decrease by about 5 to 7 
percent along the U.S./Mexico border.
    I can't see the evidence yet for an increase in the 
northern end, but the decrease in the southern end it has come 
down over the past several years. But we're coming down from a 
very high peak in the 80s and 90s which allowed the forests to 
grow quite a bit. That's why the biomass built up, partly 
contributed to the fires that we're seeing these days because 
there is more biomass there. So it's a little hard to interpret 
what that means is drying out that we've seen in the recent 
years.
    You've heard about the fires burn. In 7 of the eleven 
western states we've had the biggest fires in their recorded 
history in the past 15 years or so. A couple of those states 
have had that record re-broken in this interval. So something--
and right now so far I think we have about 6 and a half million 
acres that has burned so far this summer compared to an average 
of around 5 or so. So we're on another big fire year obviously, 
as you know.
    So there's really something very different from our last 
century of experience that's underway right now.
    One thing about drought, I think a really, a long term 
research operational goal in the West should be to acquire a 
thorough understanding of all the components of the water 
budget on the scales needed to understand drought. The income 
terms, the outgo terms, the storage in the soil and the deep 
aquifers and even the Trans basin diversions as well which are 
all part of the water budget. If we don't understand that and 
how each of those is affected by climate change it's going to 
be harder to come up with the right policies.
    Climate extremes, we often think of fluctuations, climate 
fluctuations as gradual changes. But really many ecosystems and 
human systems are different by rare and memorable events. They 
have the potential to alter the ecological histories and 
trajectories. This is how climate change will be experienced 
and remembered.
    The climate system is an incredibly complicated system. It 
involves literally the climate here in Santa Fe is a result of 
everything happening on the surface of the earth, up in the 
atmosphere, down in the soil, all around the earth. It's a 
highly connected system. Because of this it's not fully 
predictable. We have to expect surprises in how it will shape 
out.
    We're seeing more of the warming streams as temperatures 
going up, fewer of the coolant streams. But cool temperatures 
are not going to go away. They'll just be seen less frequently.
    When it comes to precipitation, there's a general 
expectation and an observation that in the United States heavy 
precipitation has increased over most of the United States, 
like the wettest day of the year. It's decreased a little bit 
less in the Pacific Northwest. It shows not as much trend in 
the Southwest. It's been, sort of, flat, except for the very 
shortest durations of less than a day, like several hours long.
    Driving up here from Albuquerque last night I wasn't able 
to go 70. I just went about 4 with the heavy rains and there's 
a lot of flooding and the alluvials passed along the way. 
That's indicative of the kind of thing we expect to see more 
often.
    The third point I wanted to address was observations and 
monitoring. I deal with this a lot. We just tracked western 
climate for people, for all kinds of purposes.
    When we can't predict everything really well that means 
that heightens the role of observations and monitoring. We have 
to keep our attention to this very much. It's very frequently 
looked at.
    Observations are everybody's second priority. The 
observational systems that we use to keep track of what's going 
on that people use for their research are constantly under 
threat, especially in a budget environment. We need to resist 
the attempts to reduce those as much as possible.
    One of the things that we could do in the west, we have a 
lot of Federal systems that are out monitoring climate for a 
variety of purposes by the different agencies. I think we could 
have better coordination of those. Make them serve double and 
triple duty by having higher level coordination and ensuring 
that we get more bang for our observing buck.
    The fourth point I wanted to address is this whole issue of 
this is just such a, society speaking, this is such a giant 
problem. It just seems so large and complex people have a hard 
time getting their hands around it. It seems to me that there 
are many different parts of the solution path to it.
    But it's a problem that we've gotten into bit by bit. I 
think part of our solution process has to be to sort of get out 
of it bit by bit. Human beings are the most adaptable organism 
the earth has ever seen in its history. It's because of that 
that we have helped cause this problem to come about. But that 
very same adaptability and the cleverness and so forth that we 
have, I think is suitable to be harnessed in service of a 
remediation of this problem.
    This problem has, you know, because we end up talking to 
the public about this issue a lot. It has so many different 
facets you can't even go through them all here. But, you know, 
the time lag that it takes between the gas in the atmosphere 
and the effects that we're seeing. There's a timelines built 
into the system. If we wait for those to occur through 
observation. In many cases it's too late. You can think of 
analogs in health and so forth to that thing.
    Another thing that has sort of stuck me is this. It seems 
that we require a pretty high burden of proof before we take 
action on this. Yet we routinely make highly consequential 
individual choices based on patchy, incomplete and uncertain 
information.
    I use examples of like who are you going to marry? What 
house are you going to buy? What university are you going to 
attend? What job to take? Which car to purchase? What 
investment to make? Whether to run for the Senate or not? All 
those kinds of things.
    You know, we don't need perfect information to act. Yet we 
seem to act like we do. So while we're still trying to acquire 
more information and I don't think that's the reason we should 
be doing anything.
    So I guess just a couple more points that I wanted to make 
is we want to have national coherence and commonality in our 
overall vision of how we address these issues. But most of the 
practical issues we run into pertaining to climate are 
experienced at the regional, the state and the local levels. To 
this end there are about a half dozen major Federal and state 
sponsored agencies. There's already programs and activities 
underway.
    In my career I've kind of been part of every one of those. 
They seem really complicated and sometimes overlapping to 
people who are not familiar with them. But having watched them 
from the inside I don't really think that's the case.
    But we're working very diligently to try to make sure that 
we're getting the best use of the taxpayer dollar in all these 
different kind--like the Climate Science Centers, the Regional 
Integrated Science and Assessments Program of NOAA, Regional 
Climate Center Program, these landscape conservation 
cooperatives and so forth under the Department of Interior. So 
I think there's some really good opportunities there to be 
working together. A lot of us are having the side conversations 
to do that.
    One other thing I might point out is that we, as with our 
first speaker here, the people have been present in the 
Intermountain West for a millennia and they acquired a really 
significant store of experiential, traditional knowledge about 
climate and the environment, what I call the wisdom of 
antiquity. Then we have the more recent science based 
approaches. I think we really need both of these. Neither one 
of them is sufficient. But when we put them together we have 
enough, we may have enough information on which to act.
    So I guess, you know, personally I'd just say I really like 
hard problems. This is one of the hardest problems I can think 
of. It's really a worthy challenge in this regard.
    I just don't think it's insoluble. But we just have to 
look. Have to have the will power to do something about it.
    Thanks.
    [The prepared statement of Mr. Redmond follows:]

 Prepared Statement of Kelly T. Redmond, Regional Climatologist/Deputy 
 Director, Western Regional Climate Center, Desert Research Institute, 
                                Reno, NV
    Chairman Bingaman, and other Members of the Committee, thank you 
for the opportunity to discuss with you today these matters pertaining 
to our knowledge of past, present and future climate in the 
Intermountain West. The high temperatures and smoke-filled skies around 
the West as we speak serve as testament to the relevance of these 
issues.
                               background
    I grew up in the West, in Southwest Montana, and aside from an 
excellent university education on the East Coast and in the Midwest, 
have spent my professional career in meteorology and climatology in the 
western United States. I love the West, and my current position of 
regional climatologist for the 11 westernmost continental states, 
Alaska, Hawaii, Pacific Islands, almost perfectly suits my interests 
and inclinations. I have served in this capacity since 1989, working at 
the Western Regional Climate Center (WRCC) in Reno Nevada. WRCC is one 
of six such NOAA-administered centers in the US, and is housed at the 
Desert Research Institute, a component of the Nevada System of Higher 
Education. Prior to this time I served as state climatologist for 
Oregon for six years. My interests span all facets of climate and 
weather behavior, their physical causes and variability, how climate 
interacts with other human and natural processes, and how such 
information is acquired, used, communicated, and perceived.
    I am also very involved in numerous national and regional drought 
activities, and along with Mike Hayes at the National Drought 
Mitigation Center (U Nebraska) serve as co-chair of the NIDIS (National 
Integrated Drought Information System) Program Implementation Team.
    The clientele for our primary program (the Regional Climate 
Centers, RCCs) consists of all segments of the public from individuals 
to organizations, private enterprise from small to large, government 
agencies at local, state, regional and national levels, and educational 
and media sectors. We address a wide spectrum ranging from how and why 
weather and climate vary through time and across the western landscape, 
measurement and monitoring functions, rapid and efficient access to 
climate information, how human and natural systems respond to climate, 
and how people and organizations incorporate knowledge of climate into 
their decision processes at multiple scales. Though not our ongoing 
reason for existence, we also include climate change as a component of 
our efforts because it is such a major issue within our discipline.
             1. aridity seems likely to persist or increase
    In the arid landscapes of the West, drought is a frequent visitor 
that has shaped the cultural and biological characteristics of 
societies and their environment in innumerable ways. Drought has been 
present somewhere in the West during each of the 13 years since the 
initiation of the US Drought Monitor. From instrumental and earlier 
proxy records (tree rings, lake sediments, etc) we have recently 
acquired a far better appreciation of the regional vulnerability to 
extended drought. The tan and brown landscape is a perpetual visual 
reminder of that circumstance that complements our knowledge from 
measurement and scientific inference.
    In the West, precipitation nearly always increases with elevation, 
and streamflow in most major river systems is disproportionately 
influenced by small areas at high elevations. Furthermore, a great deal 
of this precipitation falls as mountain snow, in winter, and is then 
metered out through the snowmelt process in spring and summer. As a 
broad generality--from the standpoint of streamflow, hydrology, and 
soil water recharge at shallow and deep levels--not all precipitation 
is equal: cool precipitation is more effective than warm precipitation. 
In most locations, precipitation is seasonally concentrated in one, 
sometimes two, or occasionally three portions of the annual cycle. 
Droughts with the most impact involve the loss of one or more of these 
precipitation seasons.
    Akin to a household checkbook, in every location a water budget can 
be formulated: ``revenue'' as precipitation, streamflow, and 
groundwater recharge, versus ``expenses'' from evaporation, plant 
transpiration, groundwater withdrawal and outflow, and municipal and 
industrial consumption. Water is also stored in various surface and 
underground reservoirs, which fluctuate up and down, and are tied to 
gain and loss processes. Interbasin transfers represent one other loss 
or gain. When the rate of loss exceeds the rate of supply for 
sufficiently long that water buffers are drawn down to unusually low 
levels, we call this drought. Furthermore, we seek corroboration in the 
form of impacts of such deficiencies on human and ecological systems. 
Following such logic, drought is essentially defined by its impacts.
    Though supply and demand for water are clearly influenced by 
precipitation, many of the above processes are affected by temperature, 
sometimes strongly, and at times in addition by wind and humidity (eg, 
drying of forests and other vegetation). Temperature also affects 
whether precipitation falls as rain or snow at a given altitude, the 
elevation at which the rain/snow transition occurs, the length of the 
snow accumulation season, and the timing and rapidity of melt. 
Temperature thus is a significant hydrologic factor and important for 
drought. All other things being equal, a warmer drought is more 
consequential than a cooler drought. The local or regional water budget 
can become more negative from temperature effects alone, with no change 
in total annual precipitation.
    The West has been warming for whatever reason since the middle 
1970s, by about 1 C / 2 F, so that recent droughts have been warmer 
than previous droughts. Projections from climate models lead to an 
expectation of further warming of at least another 2-3 C / 4-6 F, 
slightly more in summer, slightly less in winter. These same models 
indicate that such warming will likely not be steady, but rather 
punctuated by interruptions lasting a year or two up to a decade or 
two. Temperature rises are superimposed on the typical up and down 
fluctuations that have always characterized climate, and temporary 
downturns are found in many of these climate models and are anticipated 
as the future unfolds.
    From 1895 to the middle 1970s, annual mean temperature in the 
western states fluctuated up and down with little net trend. Starting 
in the middle 1970s, temperatures have increased over the past 35 
years. Since about 2000 they have remained approximately flat at their 
newly elevated levels, and the past 3-4 years have cooled by about half 
this 35-year increase in parts of the West. We do not know the reason 
for this flattening or for the recent cool period. The Southwest states 
have not participated as much in these recent trends, and in general 
have continued to warm. Furthermore, much of the western rise in 
temperature has been at night rather than during daytime. We really 
don't know why. This does not appear to be an artifact of the observing 
process (for example, thermometers in urban heat islands), but the 
reason needs to be better understood.
    From north to south, the year-to-year variations in precipitation 
expressed in percent of average generally increase. Especially in the 
arid Southwest, annual precipitation is highly variable from year to 
year, the greatest in the US. Unless trends are large they will be hard 
to detect without observations from many years. As with day-to-day 
forecasts, precipitation is inherently more difficult to project than 
is temperature at longer climatic time scales. Nonetheless, there is 
general agreement among climate models that western precipitation will 
increase near the Canada border, and decrease near the Mexico border, 
by approximately 5-7 percent in the next 20-30 years, with a zone of 
little change approximately at the latitude of Interstate-80 across the 
West. These same models are indicating that winter precipitation may 
increase, whereas spring and summer precipitation decrease. This 
implies wetter winters, but a longer vegetative drying season centered 
on summer, which in this projected period receives less precipitation 
than now from the Mexico to the Canada border. Another implication is 
higher probability of extreme wet events in winter (more floods) but a 
longer and warmer summer dry season (more drought), a seemingly 
paradoxical possibility that actually does make physical sense. In 
addition, especially in more southerly latitudes of the U.S., winter is 
reliant on a few big storms to produce a significant fraction of the 
annual total. Thus, in the more southerly mountain ranges of the West, 
a reduction or occasional lack of such storms would lead to winter 
drought and subsequent low summer streamflow.
    Precipitation averaged over the 11 westernmost states shows little 
trend over the past 120 years. Starting around 1980 and continuing 
until today, the West entered a period marked by much greater year-to-
year variability than the prior 30 years. Some of these sizable 
excursions from long term means have lasted 4-6 years. These variations 
test infrastructure and planning and keep water managers awake at 
night. The projected increases in annual precipitation along the Canada 
border do not appear to have begun yet. Along the Mexico border, 
precipitation has declined since the late 1990s, somewhat in line with 
the projections, but the entire Southwest is coming down from a lengthy 
maximum in moisture that included the 1980s and early 1990s, and it 
seems premature to conclude very definitively that this is a 
consequence of climate change. In many places, the vegetative growth 
spurt of that era has furnished the fuels for the large and numerous 
wildland fires of the past 15 years.
    At least some portions of the Intermountain West has been 
significantly affected by drought every year since the winter of 1995-
96, which eventually led to the passage of legislation creating NIDIS. 
The most widespread drought during this time was in 2002, with 
exceptionally low flows on the Colorado River. Flows from the meager 
snowpack in 2012 have rivaled those in 2002. This drought has been 
warmer than previous droughts, a factor that has heightened its 
impacts. Drought has lowered the resistance of trees to pests, and 
higher temperatures have enabled pests to reproduce in larger numbers, 
and millions of acres of trees have died.
    The region has seen an upsurge in area burned by wildland fire over 
the past decade and a half. Field reports of unprecedented fire 
behavior in terms of energy release and intensity have been common. Of 
the 11 western contiguous states, 7 have seen the largest fire in their 
state's recorded history during this short interval, and some of these 
states have broken such records only to see them re-broken in the last 
few years. As of mid-August 2012 the national area burned by wildland 
fires stands at over 6 million acres, compared with an average of about 
5 million, and a significant portion of the fire season has yet to 
occur in some locations. Clearly something very different is happening.
    Drought is by far the most costly US hazard. Since enacted as law 
in 2006, the National Integrated Drought Information System (NIDIS) has 
been very successful in addressing drought issues across a broad array 
of activities, from research to monitoring to preparedness to public 
understanding. Another goal of NIDIS is to contribute to and benefit 
from the rich national conversation that now accompanies the production 
of the US Drought Monitor every week. Drought comes in many different 
flavors, and NIDIS has emphasized as a national theme the need for 
place-based and application-specific products and services. The Western 
Governors Association and the Western States Water Council have been 
strong supporters of NIDIS and its goals, and will be seeking re-
authorization in the coming year.
    A long term goal in the western states should be a thorough 
understanding of all the major components of water budgets on spatial 
scales small enough to be relevant to each of the river basins in the 
region. These components include precipitation (and separately, 
snowfall), evaporation, transpiration, and soil and aquifer recharge 
(with special attention to mountain block recharge). In addition, tools 
that help visualize this picture for both water professionals and for 
the public are very much needed.
    2. climate events and extremes are as important as gradual and 
                           incremental change
    Our first impression is that climate consists of the mean condition 
of the atmosphere, and surface and upper soil, averaged over a 
sufficiently long time. However, brief reflection will help us to 
conclude that climate may also be viewed as an unending sequence of a 
large number of small discrete events intermingled with a few large and 
sometimes extraordinary events with lasting effects. Both the human and 
the natural world respond to slow accumulations that reach trigger 
points, and to major disturbances that alter, sometimes substantially, 
and at times forever, an existing set of relationships. Examples are 
floods, windstorms, droughts, fires, heat waves, and regional frosts, 
which can leave their mark for decades or centuries.
    Indeed, in our local setting today, the Santa Fe Institute has been 
a global leader in the studies of complex systems, which can be 
approximately defined as systems whose overall behavior cannot be 
predicted or often even imagined from studies of the parts in 
isolation. Climate is such a system, because ultimately the climate of 
Santa Fe is a product of processes taking place on, above, and below 
the surface of the earth and ocean, across the entire globe. Future 
states of such systems can only be predicted to a certain degree, in a 
piecewise, partial, incomplete, inexact and intermittent manner. 
Nonetheless there is often enough predictability to be useful in 
helping with decisions. Our best example is day-to-day weather 
prediction, which has improved demonstrably and substantially over the 
past half-century. We must exploit all sources of predictability to the 
maximum degree possible, while maintaining a realistic sense of the 
limitations.
    Many aspects of this rich area of inquiry are gradually making 
their way into the popular lexicon: tipping points, emergence, feedback 
loops, cascading failures, chaos, sequencing, system memory, local and 
remote connections, stochastic behavior, nesting, nonlinear 
(disproportionate) response, and the like. All represent a body of 
thought that is a major departure from the ``clockwork universe'' 
conception of prior centuries about how the world around us works.
    The reason for bringing this up is that human systems, ecological 
systems, and the climate system, are exceedingly complex, and their 
interactions yet more complex. Disturbances such as fire, insect 
outbreaks, wind storms, epidemics, are at once both results and sources 
of complex interacting systems, with a large dosage of luck and 
randomness. Organisms strive to take advantage, with winners and 
losers, and the makeup of ecosystems and relationships among components 
are in a constant state of mutual adjustment.
    Climate--including its variations in time and space--is but one of 
many stressors on human and natural systems. Limitations are imposed by 
availability of water, energy, raw materials, arable land, needs for 
recreational psychological sensibilities, geology, topography, and 
other factors. However, climate is pervasive and inexorable, always 
exerting some kind of influence, always a factor in the environment and 
in our own lives.
    With warming, extreme heat is expected to occur more often, and 
extreme cold less often (though it will not disappear). This has 
consequences for individual humans, but also to ecosystems. For 
example, many pathogens and pests are held in check by temperatures 
exceeding cold thresholds, like frosts, or for pine beetles, extremely 
cold winter temperatures. Winters without such temperatures permit more 
pest generations to survive and feed upon formerly less vulnerable 
foliage. Drought or other climate sequences can also reduce the 
defenses of trees and other vegetation. Repeat photography has shown 
the effects of a single night of severe frost in the Grand Canyon 
earlier in the 20th Century have lingered into the present day.
    Warm air is able to ``hold'' more water as vapor than cold air; a 5 
C / 9 F rise in temperature allows the limit on atmospheric water 
content to rise by 35-40 percent. One expectation of a warmer climate 
is thus that the atmosphere would likely contain more water, which 
would thus be available to rain out at a higher intensity. Intensely 
heavy precipitation is caused or abetted by a variety of factors, each 
of which may become more or less prevalent, and very likely do so 
differently according to season, latitude, geographic and topographic 
setting, and so forth. Studies have shown that in most of the US, very 
wet days have increased in frequency, as has the water content of the 
atmosphere on very wet days. Such trends toward more very wet days are 
more notable in the eastern US, but not so much so in the Pacific 
Northwest, and seem to be absent in the six Southwest states, fur 
durations of a day or more. However, there does seem to be evidence 
that the very wettest of shorter events, of a few hours' duration, have 
become wetter and more frequent in the Southwest in the past few 
decades.
    The topic of very heavy precipitation is starting to be closely 
scrutinized, because such events have enormous social and engineering 
costs, and all civil structures in the country must be built to 
standards set by analysis of past climate records (per past practice). 
The climate and engineering professions are struggling to develop 
methods that permit those standards to slowly evolve through time. 
There are thorny physical, statistical, observational, and social 
issues (the methods have to be accepted by the engineering community) 
that attend this process. This is a vital area of current exploration 
and needs to be actively supported.
 3. observations and monitoring are critical to response and adaptation
    Our knowledge of the world around us derives from two sources: 
observations, and theoretical constructs that explain the observations. 
Both are necessary to claim understanding. But in almost every 
instance, observations lead in this perpetual dance.
    Much of what we know about national, regional and local weather and 
climate is the result of long-term monitoring efforts made either to 
satisfy curiosity or to serve an application. Our knowledge of 
variations and trends in climate is based on long-term records, not 
necessarily always begun with such an application in mind. Climate 
studies place an extra requirement on measurement programs, an 
imperative for consistency through time. Otherwise we are unable to 
distinguish between changes in the climate and changes in the 
measurement process. The latter can include changes in very local 
environments near the thermometer or gauge, changes in instruments, 
changes in observational processes and procedures, changes in the way 
in which measurements are reported, and even changes in the way quality 
control is performed.
    The consensus view among climate and atmospheric specialists would 
be that there is no conceivable way actual observations are ever going 
to be replaced by simulation, though we continue to improve in that 
regard. Good quality long-term observations are indispensable, and 
serve as a real-world reality check on our favorite speculations.
    Though they are crucial, a common refrain is that ``observations 
are everybody's second priority.'' Observing networks that meet 
necessary standards are under constant threat of reduction or 
elimination. This pressure has to be resisted, even as we seek methods 
to harness technology to improve the way we measure long-familiar 
quantities (temperature, precipitation, humidity, wind, solar 
radiation). There is continual need to support reference networks that 
generate records of essentially unimpeachable quality, against which 
other available measurements with insufficient documentation, unknown 
provenance, poorly known histories, and other uncertain properties, can 
be compared. In the middle 2000s, the Climate Reference Network (CRN) 
of about 120 stations was deployed nationwide for such a purpose. An 
effort to establish a Regional CRN (first 1000, later 538 stations, on 
a national grid) began in the Four-Corner states in the late 2000s, as 
a pilot, and many were installed. A second phase of this pilot extended 
to the five states of CA, NV, OR, WA, and ID. The western states were 
chosen first as a reflection of western drought needs identified by 
NIDIS. This program, intended as a many-decade national commitment, was 
abruptly canceled in 2011 because of budgetary emergencies.
    This leaves us with the venerable National Weather Service 
Cooperative Network (``Coop''), manual measurements by volunteers from 
a program that extends from the 19th Century, but now being revamped to 
allow daily electronic entry via the Web using a system called 
WeatherCoder. About 85 percent of the 7500 total stations now use this 
system, a major improvement for daily updates to drought monitoring and 
many other climate purposes. The entire Coop network will soon be 
completely ``paperless.'' Considering its innumerable benefits to the 
nation, the very wide demand for information from this network, the 
century-plus period of operation, and the relatively low cost of its 
maintenance, this important network is a very efficient and valuable 
investment that should be supported indefinitely.
    Observations acquire value through use, and thus an important 
function that goes hand in hand with measurement is monitoring: turning 
observations into information, by means of synthesizing and summarizing 
procedures that enable us to see temporal and spatial patterns in the 
data. The Regional Climate Center (RCC) Program and the American 
Association of State Climatologists (AASC) have, along with others, 
been strong and consistent advocates of such applications, and have 
developed tools to help others manipulate raw data to create products 
and applications desired by a variety of sectors.
    One area could stand to see considerable improvement. A variety of 
networks have been deployed, particularly in western states, by federal 
agencies, in service of mission needs. With modest improvements, many 
of these stations and platforms could serve multiple overlapping needs, 
sometimes beyond the immediate needs of an agency, but of wide benefit 
for many other applications. From a taxpayer standpoint, the value of 
improved coordination and cooperation, including improved data sets, is 
an easy sell. However a number of barriers seem to deter what seems 
natural, many rooted in institutional and sometimes governmental 
cultures, with ambiguous rewards or perceived penalties for potential 
``mission creep'' for going beyond narrowly defined mission boundaries 
to serve the common good. This seems like a perpetual Catch-22. This is 
not an argument to reduce the total number, but rather to make them all 
more useful for more purposes, such as drought monitoring. The complex 
topography of the West, and close juxtapositions of very different 
climates, necessitate a much higher spatial density of stations--when 
seen in plan view--than in the flatter eastern states.
    Watching and working with western data sets and their managers over 
many years has led to one main conclusion. Most of the barriers to 
improved networks and use of data from networks have little to do with 
aluminum and copper, and far more to do with people, with institutional 
cultures and related behavioral barriers, a subject squarely in the 
realm of social science to help sort out.
        4. we should not let this problem intimidate us too much
    The climate problems we are wrestling with might be thought of as 
death from a thousand cuts. Problems associated with global climate 
change are the result of innumerable individual actions around the 
world, some direct and others indirect, acting through others (eg, 
thousands of individuals collectively creating a need for a power 
plant). We have worked our way into this dilemma bit by bit. It may be 
that a bit-by-bit approach would provide a viable and natural way out 
of the dilemma.
    Humans are the most adaptable organisms that the earth has ever 
witnessed over its history. This adaptability has led us to inhabit all 
manner of environments, and to concoct ingenious methods to improve our 
comfort and well-being, with the consequences to climate already noted. 
This very same adaptability that has caused this problem to arise can 
be likewise harnessed in service of its remediation, and indeed is our 
only real hope.
    The climate problem poses many peculiar and vexing dilemmas. One of 
these is the long lag time between cause and effect. By the time we see 
convincing evidence of a particular outcome, it likely has become too 
late to take action, no matter how earnest and active the efforts. 
Because we have not faced this problem before, there is little track 
record to provide the certitude we seek. It seems striking that we 
require such a high burden of proof, and certainty, before taking 
action. We routinely make highly consequential individual choices based 
on patchy, incomplete and uncertain information: which one to marry, 
what house to buy, what university to attend, which job to take, which 
car to purchase, what investment to make, and others. We seem to 
operate by a different standard when making these choices compared with 
those pertinent to today's discussion. Perhaps this is because the 
decision is individual rather than collective. But are we fated to 
forever follow this deeply rooted behavior, or can we change ourselves?
    A variety of activities are under way to address the human and 
physical components of current climate-related issues. Many state 
climate programs have been in existence for 50-60 years, longer in some 
cases, shorter in many others. The Regional Climate Center Program 
within NOAA has been present since 1986, emphasizing but not restricted 
to data, monitoring, and observations. The NOAA Regional Integrated 
Sciences and Assessments (RISA) program has four projects of 2-3 states 
each in the western continental United States. RISAs are experiments in 
the provision of climate services, using a ``learning by doing'' 
methodology, and are primarily a research activity. NOAA recently 
created a system of Regional Climate Services Directors (RCSD) to help 
coordinate among various partners in the climate arena. The Department 
of Interior, which manages nearly half of the western states, has just 
stood up eight Climate Science Centers to address concerns raised 
within 6-8 agencies within the Interior Department (DOI). Also under 
DOI, a system of 22 Landscape Conservation Cooperatives has been 
established, with more emphasis on management issues, wherein climate 
plays a role but not always a dominant role. Some of us are working in 
a variety of ways with all of these efforts in order to bring about 
just the right amount of overlap, not too much and not too little, and 
to help insure that the participants themselves, and the public at 
large and its political representation, can see the bigger picture, how 
these efforts are complementary, and actually are coordinating and 
collaborating.
    People have been present in the Intermountain West for millennia, 
and have acquired a significant store of experiential traditional 
knowledge about climate and the environment, the wisdom of antiquity. 
The more recent immigrants from Europe and elsewhere have trained the 
lens of science and its systematic style of analysis on the same 
subject. Neither method of learning or knowing is inherently superior 
to the other. Both traditions bring something unique to the table, and 
both are ultimately needed to claim complete understanding. Eventually 
they will merge, arriving at the same point by different pathways.
    Our present impasse over what to do will not be resolved by simply 
more facts, about what climate could or might do. It seems that 
observations and related experiential processes will carry the day.
    Personally, I like hard problems. The climate change issue is 
certainly a worthy challenge in this regard, but it is not insoluble.
    Thank you very much.

    The Chairman. Thank you very, very much.
    Our final witness today is Dr. William deBuys. Bill, go 
right ahead.

STATEMENT OF WILLIAM DEBUYS, WRITER AND HISTORIAN, CHAMISAL, NM

    Mr. deBuys. Thank you very much, Chairman Bingaman.
    I'm grateful to have this opportunity to appear before you 
today. My name is William deBuys and I'm a writer and 
historian. I published 7 books on the land and people of the 
Southwest.
    For the past 4 and a half years I've made a particular 
study of climate change in the region. That resulted in a book 
called, A Great Aridness: Climate Change and the Future of the 
American Southwest. In the course of my research one scientist 
I spoke to summarized the environmental future of the region in 
5 words. He said, ``Drought, dust, and dead trees.''
    Certainly the current drought has caught people's 
attention. Thousands of new high temperature records have been 
set. By midsummer this year a larger portion of the country was 
in a state of drought than at any time since the 1950s. More 
counties have been declared agricultural disaster areas this 
year than ever before.
    Of course, there have always been droughts. What's 
different now is that our droughts are hotter. Dr. Allen, who 
is here with us today and some of his colleagues have shown 
that the drought of the early 2000s from the first 4 years of 
the decade was one to one and a half degrees Centigrade hotter 
than the drought of the 1950s. Because greater heat means 
greater evaporation, our droughts have become effectively more 
arid than comparable droughts of the past placing greater heat 
and water stress on vegetation of all kinds from agricultural 
crops to forest trees.
    Even so, drought may be a misnomer. Drought is exceptional. 
We don't say that the Sahara Desert is experiencing drought. 
The Sahara is dry by nature, not by exception.
    A strong body of research suggests that the climate of the 
Southwest is moving to a new base state similar to the drought 
conditions of the 1950s and 1930s. Droughts and wet periods 
will still occur, but they will be superimposed on this new 
base state. In time what we currently conceive as drought will 
be understood as the new normal.
    The implications for water resources are, of course, 
severe. A widely studied--a widely cited study by a team led by 
Chris Milly of the Geophysical Fluid Dynamics Laboratory in 
Princeton, predicted that the Southwest will experience 
declines of surface stream flow on the order of 10 to 30 
percent by mid-century. Surface stream flow is basically the 
yield of rivers and streams. It's the water, apart from ground 
water, that is available for human use.
    Given that Southwestern water resources are, in many cases, 
already fully or even over allocated such an extreme diminution 
of supply will undermine the well-being of the region in 
profound ways.
    Predictions like those of the stream flow study are based 
on climate modeling which is as sophisticated as any science 
being conducted in the world today. Although the science of 
climate modeling is difficult for the average citizen to 
understand, the predictions that emanate from it appear to be 
holding up very well. Except in one important respect, the 
changes are happening faster than predicted and the recession 
of Arctic sea ice is a good example of this.
    Usually when we talk about climate change and increasing 
temperatures we're talking about mean temperatures, as Dr. 
Redmond spoke of an increase of 4 to 6 degrees Fahrenheit 
during this century. These temperatures, however, are means. 
There is reason to expect that the heated, more energetic 
climate of the future will produce extreme temperatures that 
are proportionately even larger. Extremes will shape out the 
world even more profoundly than the means, triggering yet more 
forest fires, water shortages, crop failures and even waves of 
human mortality. It's worth remembering that approximately 
50,000 human deaths were attributed to the European heat wave 
of 2003.
    Just a brief word about dust, which we haven't covered yet 
so far today. Higher temperatures and increased water stress 
will trigger the exposure of more soil to the air. As 
vegetation dies back and as farmlands are fallowed and as 
forests and woodlands are consumed by fire, we'll see more and 
more dust picked up, partly by the increased vehemence of the 
winds of our more energetic future. With inevitably high levels 
of soil disturbing human activity this is a recipe for extreme 
dust storms of the kind that Phoenix has recently been 
suffering. Lacking a name for them Phoenix has borrowed the 
word from Arabic and now haboob has entered the regional 
lexicon.
    Atmospheric dust does more than make like uncomfortable for 
residents of the region. Deposited on mountain snowpack, dust 
lowers albedo, the reflectance of the snow and promotes the 
absorption of heat from sunlight. Significantly accelerates the 
melting of accumulated snow, lowering natural storage and 
increasing the vulnerability of downstream farms and 
communities to shortages.
    I won't repeat some of the information that we've already 
heard about forests and fires and insects. But I will 
underscore something that Dr. McDowell said. That is that it's 
important to note that western forests account for 20 to 40 
percent of all carbon sequestration in the United States.
    If is now seems likely under the assault of climate change. 
We are to lose the greater part of our forest to fire, insects 
and heat death. Our forest lands will at some point become net 
emitters of atmospheric carbon instead of storehouses, thereby 
intensifying buildup of greenhouse gases.
    Similarly because drought inhibits the ability of plants of 
all kinds to conduct photosynthesis and absorb carbon dioxide 
from the atmosphere, prolonged drought would also contribute to 
warming. These kinds of feedbacks, like the better known 
release of methane from thawing permafrost, have the potential 
to plunge us, ever more rapidly, into an overheated and much 
altered future.
    How sure can we be that these changes are the result of 
anthropogenic climate change and not simply the manifestations 
of natural variability?
    Actually, climate scientists are progressively achieving a 
very high degree of certain certainty.
    Climate science has passed a threshold. The modeling 
studies on which it long depended did not permit the 
attribution of climate change as a cause of specific events. A 
scientist, asked about a certain drought or a rash of forest 
fires, might say, if climate change is occurring, this is the 
kind of event that our models would predict. But he or she 
could not say climate change caused this.
    Lately this limitation has diminished. A new subset of 
climate investigations, termed ``attribution studies,'' is 
emerging, which uses statistical analysis to determine the 
probable occurrence of specific weather events with and without 
the contributing influence of climate change. The Bulletin of 
the American Meteorological Society recently published a small 
collection of such studies, including one that asserted that 
climate change made last year's drought and heat wave in Texas 
twenty times more likely.
    If I could get my image up on the screen.
    Also a team led by James Hansen of NASA's Goddard Institute 
for Space Studies at Columbia in New York goes further. 
According to their analysis, the probability that the 2011 heat 
wave in Texas or the 2010 heat wave in Russia would occur 
without the influence of climate change was less than 0.2 
percent. These graphs are taken from a study by Dr. Hansen and 
his team. It would take some considerable time to get, kind of, 
tease out the meaning from these things in full.
    But if I can address your attention to the lower set of 
graphs which have to do with Northern Hemisphere land. What 
they are basically graphing is world temperature of the area of 
the planet experiences a certain kind of temperature during the 
summer months. Basically what this graph is showing is that 
cold weather in the summer months is disappearing from 1950 to 
2010, cold weather is going away.
    Warm weather, anomalously or unseasonably warm weather is 
becoming more and more normal. These are 3 different degrees of 
departure from the norm. The last here is of extremely hot 
weather occurring. During the base period of 1951 to 1980, that 
extremely hot weather would have occurred on less than 0.2 
percent of the earth's surface. Today it's occurring on 10 
percent and at times more than 10 percent of the earth's 
surface.
    If we can go to the next slide.
    These maps depict that same information graphically or 
geographically. Here we see, sort of, the brown here. It's that 
2010 heat wave in Texas and Oklahoma. Here we see the 2011 heat 
wave in Texas and Oklahoma. Here the 2010 heat wave in Russia 
and Siberia, Western Siberia and the Great Drought in 
Northeastern Africa.
    Basically what Hansen and his colleagues are saying. These 
manifestations are so extreme. They are so anomalous that only 
climate change can account for them. So they're saying these 
things were caused by climate changes, departure from the way 
scientists have presented things in the past.
    Given all this, what should we do and what particularly 
should we do in the Southwest?
    First and foremost we must limit, act to limit the 
magnitude of the changes still ahead. This means moving to 
limit and reduce greenhouse gas emissions with the utmost 
urgency. To shirk this responsibility is to steal the 
atmospheric resources of future generations and to assure 
suffering and instability throughout the world.
    It's that simple.
    Second, we must adapt to the changes that cannot be 
prevented. This means establishing and living within drought 
resilient water budgets community by community across our 
region. Adaptation will require water conservation that is both 
extensive and intensive. But, and this is the hard part, the 
water saved by conservation must be managed in a way that 
contributes to drought resilience and does not merely fuel 
continued land development and population growth with 
consequent heartening of demand, as is typically the case.
    In addition to crafting realistic water budgets, every 
inter related group of water users should develop enforceable 
shortage sharing agreements and where applicable, prepare for 
transfers of water from agriculture to municipalities in 
advance of the inevitable emergencies.
    Where our forests are concerned we must find ways to 
reverse the penetration of residential housing into landscapes 
vulnerable to fire. We must continue fuel reduction efforts, 
especially at the wild land urban interface and in areas of 
high biodiversity with redoubled energy.
    Many other actions might be recommended and these can be in 
all areas of policy and management, from agriculture to wild 
land, but none is more important than the purpose implicit in 
this hearing, which is to build public understanding of the 
seriousness of the challenges we face. As a society, we must 
first agree on the facts of climate change in order to achieve 
consensus on how to respond to them. These facts are to be seen 
all around us, if only we open our eyes.
    No set of facts will be more determinative of the future of 
our land and society. No set of facts calls on us more 
emphatically for informed, deliberate and immediate action.
    I thank the Chairman for the opportunity to discuss these 
matters.
    [The prepared statement of Mr. deBuys follows:]

 Prepared Statement of William deBuys, Writer and Historian, Chamisal, 
                                   NM
    Chairman Bingaman, thank you for the opportunity to appear before 
you to examine the current and future impacts of climate change on the 
Intermountain West, focusing on drought, wildfire frequency and 
severity, and ecosystems. My name is William deBuys. I am a historian 
and have published seven books dealing with the land and people of the 
Southwest. For the past four and a half years I have made a particular 
study of the effects of climate change in the region, which resulted in 
a book published by Oxford University Press last year entitled A Great 
Aridness: Climate Change and the Future of the American Southwest.
    My work on climate change focused on the Southwest, defined 
broadly. This hearing addresses the ``Intermountain West'' which, by 
any definition, overlaps the Southwest extensively, but the experience 
of some northern portions of the Intermountain West may differ from the 
rest of the region, if, as expected, ``wet places get wetter and dry 
places drier'' in the changed climate of the future.
    To speak specifically of the Southwest, one scientist whom I 
interviewed summarized its environmental future in five words: 
``drought, dust, and dead trees.''
                               [drought]
    Let me begin with drought.
    Certainly the current drought has caught people's attention: 
thousands of new high temperature records have been set; by mid-summer 
a larger portion of the country was in a state of drought than at any 
time since the 1950s; and more counties have been declared agricultural 
disaster areas than ever before.
    Of course, there have always been droughts. What is different now 
is that our droughts are hotter. Drs. David Breshears, Craig Allen, and 
colleagues have shown that the drought of the early 2000s was 1 to 
1.5C hotter than the drought of the 1950s. Because greater heat means 
greater evaporation, our droughts have become effectively more arid 
than comparable droughts of the past, placing greater heat and water 
stress on vegetation of all kinds, from agricultural crops to forest 
trees.
    Even so, ``drought'' may be a misnomer. Drought is exceptional. We 
don't say that the Sahara Desert is experiencing drought: the Sahara is 
dry by nature, not by exception. A strong body of research suggests 
that the climate of the Southwest is moving to a new base state similar 
to the drought conditions of the 1950s and `30s. Droughts and wet 
periods will still occur, but they will be superimposed on this new 
base state. In time, what we currently conceive as drought will be 
understood as the new normal.
    The implications for water resources are severe. A widely cited 
study by a team led by Chris Milly of the Geophysical Fluid Dynamics 
Laboratory in Princeton predicted that the Southwest will experience 
declines of surface streamflow on the order of 10-30% by mid-century. 
(Surface streamflow is the yield of rivers and streams; it is the 
water, apart from groundwater, that is available for human use.) Given 
that southwestern water resources are already fully or even over-
allocated, such an extreme diminution of supply will undermine the 
well-being of the region in profound ways.
    Predictions like those of the streamflow study are based on climate 
modeling, which is as sophisticated as any science being conducted in 
the world today. Although the science of climate modeling is difficult 
for the average citizen to understand, the predictions that emanate 
from it appear to be holding up well, except in one important respect: 
the changes are happening faster than predicted.
    For example, in 2007 the Intergovernmental Panel on Climate Change 
predicted our region would warm approximately 4C by the end of this 
century. We appear to be already about 0.8C along that journey, almost 
a quarter of the way, but seven-eighths of the century still lie before 
us. Clearly, if temperatures increase at a linear rate, or faster, we 
are on track to exceed the 4C target.
    These temperatures, however, are means. There is reason to expect 
that the heated, more energetic climate of the future will produce 
extreme temperatures that are proportionately even larger, and the 
extremes will shape our world even more profoundly than the means, 
triggering yet more forest fires, water shortages, crop failures, and 
even waves of human mortality. Bear in mind that approximately 50,000 
human deaths were attributed to the European heat wave of 2003.
                                 [dust]
    A word about dust. Higher temperatures and increased water stress 
will trigger the exposure of more soil to the air, as vegetation dies 
back, farmlands are fallowed, and forests and woodlands are consumed by 
fire. Combined with the fierce winds of a more energetic atmosphere, 
and with inevitably high levels of soil-disturbing human activity, this 
is a recipe for dust storms. In recent years Phoenix has suffered 
periodic dust storms of unprecedented magnitude. Lacking a name for 
them, Phoenix has borrowed a word from Arabic, and now haboob has 
entered the regional lexicon.
    Atmospheric dust does more than make life uncomfortable for 
residents of the region. Deposited on mountain snowpack, dust lowers 
albedo (reflectance), promotes the absorption of heat from sunlight, 
and significantly accelerates the melting of accumulated snow, lowering 
natural storage and increasing the vulnerability of downstream farms 
and communities to shortages.
                              [dead trees]
    The fearsome increase in the destructiveness of forest fires 
throughout the region is well known. The drought of the early 2000s 
bred fires that set records in Arizona, New Mexico, and Colorado for 
both size and damage. The past two years have seen almost all of those 
records broken by still larger and more destructive fires. A century of 
misguided management that included the suppression of all fire 
contributes prodigiously to the fire danger we face today, but climate 
is equally influential: we know that fire season is now at least two 
and a half months longer than it was thirty years ago and fire 
behavior, driven by high winds and higher temperatures, is becoming 
ever more extreme.
    A comparison of the Cerro Grande fire of 2000 and the Las Conchas 
fire of 2011, which ignited in adjacent, nearly identical areas in the 
Jemez Mountains, bears consideration. The Cerro Grande fire burned 
approximately 43,000 acres over the course of two weeks. Most observers 
thought its like would not be seen soon again, at least not in the same 
location, but last year the Las Conchas fire burned 43,000 acres, 
equaling the achievement of Cerro Grande, in its first fourteen hours. 
Ultimately more than 150,000 acres were consumed.
    Fire is not the only threat to our forests. Insect outbreaks, like 
the bark beetle irruption of the early 2000s in Arizona and New Mexico 
that killed pines across an area twice the size of Delaware, will 
doubtless become more frequent, for the simple reason that warmer 
temperatures favor increased insect reproduction.
    We can also expect heat and moisture stress, alone, without the 
intervention of fire or insects, to kill large numbers of trees, as 
they did last year, when between 2 and 10 percent of all the trees in 
Texas succumbed.
    It is important to note that western forests account for 20 to 40 
percent of all carbon sequestration in the United States. If, as now 
seems likely under the assault of climate change, we are to lose the 
greater part of our forests to fire, insects, and heat death, our 
forest lands will at some point become net emitters of atmospheric 
carbon, instead of storehouses, thereby intensifying buildup of 
greenhouse gases. Similarly, because drought inhibits the ability of 
plants of all kinds to conduct photosynthesis and absorb carbon 
dioxide, prolonged drought will also contribute to warming. These kinds 
of feedbacks (like the better known release of methane from thawing 
permafrost) have the potential to plunge us ever more rapidly into an 
overheated, much altered future.
                         [attribution studies]
    How sure can we be that these changes are the result of 
anthropogenic climate change and not simply manifestations of natural 
variability?
    Actually, we are progressively achieving a very high degree of 
certainty.
    Climate science has passed a threshold. The modeling studies on 
which it long depended did not permit the attribution of climate change 
as a cause of specific events. A scientist, asked about a certain 
drought or rash of forest fires, might say, ``If climate change is 
occurring, this is the kind of event our models tell us to expect,'' 
but he or she could not say, ``Climate change caused this.''
    Lately this limitation has diminished. A new sub-set of climate 
investigations, termed ``attribution studies,'' is emerging, which uses 
statistical analysis to determine the probable occurrence of specific 
weather events, with and without the contributing influence of climate 
change. The Bulletin of the American Meteorological Society recently 
published a small collection of such studies, including one asserting 
that climate change made last year's drought and heat wave in Texas 
twenty times more likely.
    A team led by James Hansen of NASA's Goddard Institute for Space 
Studies goes further. According to their analysis, the probability that 
the 2011 heat wave in Texas or the 2010 heat wave in Russia would occur 
without the influence of climate change was less than 0.2 percent. One 
way of interpreting this figure is to say that neither event should 
have occurred more often than once in five centuries. The team further 
found that similar, highly unlikely events now cover, not 0.2 percent 
of Earth's surface, as was the case during the reference period of 
1951-1980, but approximately 10 percent. This extreme anomaly, they 
say, can only be explained by climate change.
                        [action recommendations]
    Given what we know, what should we do?
    First and foremost, we must act to limit the magnitude of the 
changes still ahead. This means moving to limit and reduce greenhouse 
gas emissions with the utmost urgency. To shirk this responsibility is 
to steal the atmospheric resources of future generations and to assure 
suffering and instability throughout the world. It is that simple.
    Second, we must adapt to the changes that cannot be prevented. This 
means establishing and living within drought-resilient water budgets, 
community by community, across the region. Presently the Lower Basin of 
the Colorado River, chiefly the states of Arizona and California, 
operates at an annual deficit of 18 percent. This is to say that the 
Lower Basin over-drafts its account by withdrawing from Lake Mead 1.2 
to 1.4 million acre-feet more than its allocation of 7.5 million acre-
feet. Such behavior is unsustainable under any circumstances. In an era 
of climate change and declining river flow, it is irrational and 
dangerous.
    Adaptation will require water conservation that is both extensive 
and intensive, but (this is the hard part) the water saved by 
conservation must be managed in a way that contributes to drought 
resilience, and does not merely fuel continued land development and 
population growth, with consequent hardening of demand, as is typically 
the case.
    In addition to crafting realistic water budgets, every interrelated 
group of water-users should develop enforceable shortage-sharing 
agreements and, where applicable, prepare for transfers of water from 
agriculture to municipalities in advance of the inevitable emergencies.
    Where our forests are concerned, we must find ways to reverse the 
penetration of residential housing into landscapes vulnerable to fire, 
and we must continue fuel-reduction efforts, especially at the 
wildland-urban interface and in areas of high biodiversity, with 
redoubled energy.
    Many other actions might be recommended--in all areas of policy and 
management from agriculture to wildlife--but none is more important 
than the purpose implicit in this hearing, which is to build public 
understanding of the seriousness of the challenges we face. As a 
society, we must first agree on the facts of climate change in order to 
achieve consensus on how to respond to them. These facts are to be seen 
all around us, if only we open our eyes. No set of facts will be more 
determinative of the future of our land and society, and no set of 
facts calls on us more emphatically for informed, deliberate, and 
immediate action.
    I thank the chairman and his committee for the opportunity to 
discuss these matters.

    The Chairman. Thank you very much.
    Thank all of the witnesses.
    Why don't before I ask a few questions, it occurred to me 
as I've listened to the testimony, let's take a short break. 
Anyone who has to leave can do so. Then we'll proceed and have 
another few minutes of hearing after the break.
    But let's take about a 10-minute break.
    [BREAK]
    The Chairman. We'll go for another 10 or 15 minutes here.
    Let me just ask a few questions that occurred to me as a 
result of all the excellent testimony.
    First of all, this paper, Dr. Allen, I believe you referred 
to the fact that a paper dealing with the issue of climate 
change has been accepted by Nature to be published. Could you 
give us any more information about who was involved in the 
preparation of it and what the conclusions of it are? That you 
indicated you thought it was an important document.
    Mr. Allen. Yes, well the lead author for that is Park 
Williams. So I think, yes, right there is Park.
    The Chairman. Congratulations.
    Mr. Williams. Thank you.
    Mr. Allen. Actually he would be the best person that you 
could ask----
    The Chairman. Yes. Please just give us the highlights of 
what you concluded in this paper that we're going to see 
published.
    Mr. Williams. So we used tree ring records from about 
13,000 individuals throughout the Southwest from like 335 sites 
to develop a 1,000 year long record of tree health in the 
Southwestern U.S. These are from 3 main species of conifers in 
the Southwest.
    Then for the last hundred years which overlap with the 
observed climate record we were able to compare that record of 
tree health to climate variables, climate data and isolate the 
exact climate variables and seasons that really influence tree 
health the most. There is two variables. It turned out to be 
wintertime precipitation which is no surprise with the amount 
of snow that accumulates on the ground. Summertime atmospheric 
moisture demand which is, as everybody here has already said, 
influences areas driven by temperature and humidity and 
influences the rate at which the moisture is pulled out of the 
soil and pulled into the atmosphere.
    What was very interesting is those two variables, 
wintertime precipitation and summertime moisture demand in the 
atmosphere, were approximately equal in importance. So that 
means even if we continue receiving a consistent amount of 
precipitation during the wintertime in the next century, if we 
have temperatures increase therefore evaporative moisture 
demand in the atmosphere increasing in the next 100 years then 
that alone should cause substantial change in forest health in 
the next century.
    Because we can quantify the impact of wintertime 
precipitation and summertime moisture demand on forest health 
then we could use future potential scenarios of climate to 
forecast forest health, quantitatively. By doing that you find 
that by 2050, forest health is about the same as it was during 
the worst mega droughts in the last millennium. The worst mega 
droughts were in the late 1200s which influenced the ancestral 
Puebloans in a tragic way in the late 1500s, which we believe 
caused the amount of the forest in the Southwest to be reduced 
substantially.
    The difference between the drought that we expect to be 
occurring by mid-century and the 1500's drought is that the 
drought that we expect to be occurring by mid-century should 
not change. It should not rebound. We will have warm periods 
and cool periods still. But each warm period will be warmer. 
Each cool period will be cooler.
    On average we'll be continuing on trend toward dry 
conditions. Whereas after the 1500's drought, it got wetter and 
cooler again and the forests were able to re-establish. So in 
other words----
    The Chairman. Each warm period will be warmer, but each 
cool period would be cooler or warmer?
    Mr. Williams. Yes, it will be warmer.
    The Chairman. Yes. Right.
    Mr.Williams. So the take on this is that decade by decade 
we're getting warmer on average. It will be harder and harder 
for trees to re-establish in the places where they die due to 
these mega drought type conditions. So by the year 2100 you'll 
be looking at a quite different landscape than what we see 
today.
    My analysis shows that by the 2040s, barring some huge 
inaccuracy in life models, we should be looking at a very 
different landscape that what we see today, just like the 
landscape we see today is quite different than what we saw in 
the 1980s.
    The Chairman. Very good.
    Congratulations on the work and getting it accepted.
    Mr. Williams. Thank you.
    The Chairman. The education, it's terrific.
    Let me ask about the reference to Dr. McDowell. You said 
that you made a reference to solutions. then didn't elaborate 
in your testimony.
    Could you give us, I mean, obviously we should be doing 
what's possible to reduce greenhouse gas emissions? We should 
be taking the steps necessary to adjust to the warming and the 
climate change that we can't head off in any way.
    Are there more specific solutions that you see that we 
ought to be pursuing?
    Mr. McDowell. I think that's a great question, Chairman. At 
a local scale, a regional scale, a western North American 
scale, forest management can be employed in a sustainable 
manner to reduce the risk of fires and reduce water stress.
    As Dr. Allen pointed out, we stopped fires a little over 
100 years ago. The ladder fuels have grown. We had these 
catastrophic fires.
    So, the mechanical thing of the understory trees, the 
smaller trees, leaving the big ones that are adapted to survive 
the small fires, should reduce the catastrophic wildfires. It 
also will help with bark beetle attacks which are rampant 
across the Northern hemisphere because they'll have less 
stress. In other words, they're not competing for resources 
with their neighbors as much.
    That's my main suggestion.
    The Chairman. The other part of this, which I don't know 
what to ask you folks to respond to. But regular gas emissions 
have been coming down in the U.S. here recently because of the 
switch to more use of natural gas verses use of coal in 
electricity generation. That's what the newspaper article says.
    Then go out worldwide and most of the growth in greenhouse 
gas emissions for the coming decades is expected to occur in 
emerging countries. It's not going to be occurring here cause 
we're not adding generation capacity like they are. We don't 
have the increased demand for energy that they do.
    It just strikes me that this is one of those issues where 
we could do what we can do here in Santa Fe County, in New 
Mexico, in the Southwest, in the Intermountain West, to try to 
accommodate the situation. But we almost have to engage the 
rest of the world in order to significantly affect greenhouse 
gas emissions and significantly affect the long term trends. Is 
that an accurate?
    Maybe I should ask you, Bill, if that's your conclusion 
that we just have to have a global solution to the problem or 
else it's not a problem that gets solved?
    Mr. deBuys. Yes, Mr. Chairman, I would agree we need a 
global solution. I don't think that we can achieve a global 
solution in practical terms, however, unless the United States 
becomes a global leader. Without the United States leadership 
on the business of limiting greenhouse gases, I don't think 
we'll be able to bring China and India along as we need to.
    Europe has already exercised some leadership. But I think 
the lack of participation in these issues by the United States 
has undermined that effort considerably. So the world still 
respects the United States a great deal. If we lead maybe we 
can achieve something.
    The Chairman. Dr. Redmond, do you folks attempt, in any of 
the work that you're doing, do you try and engage other 
countries, particularly emerging countries in what needs to be 
done and monitoring efforts and all the rest of it?
    Mr. Redmond. No, not so much.
    Actually, I decided a while back to just really concentrate 
on the Western states because there's dozens of climate issues 
there. They need attention. Rather than spread my own attention 
too thin, it was a conscious decision to just stick with the 
West.
    It's where I grew up. I really love it here.
    So, I think regarding Bill's point and the question you 
just asked is we, as part of our leadership role in the world, 
would be to help other countries see that it's in their self 
interest to limit greenhouse gases.
    I think there's one other point that's worth bringing up 
here. It's not the climate issue directly, but it's the ocean 
acidification issue which is purely a chemical thing of carbon 
dioxide going into the oceans. The oceans belong to all of us. 
We all need healthy oceans.
    This is totally separate from the climate change problem. 
But it has equally big consequences. They're just as 
frightening to me as climate change is.
    We don't have to be hung up on this issue of whether you 
believe in climate change or not for that to be an issue. It's 
a separate issue that's so much a concern it's yet another 
driving force that's maybe a leverage point to, for us, to be 
able to deliver this needed leadership without getting so hung 
up on these discussions we're having all the time about the 
climate side of things.
    The Chairman. Let me ask, Dr. McDowell. Your work there at 
Los Alamos, my impression is you are the cutting edge as far as 
what's being done to try to verify the extent of greenhouse gas 
emissions worldwide? Be in a position where we have needed 
information about where the problem is the worst and where the 
problem is and how much of it is naturally caused and how much 
of it is manmade.
    It seems to me that getting worldwide attention up will 
depend on having very good information about precisely where 
the problem is coming from and who is to blame and who is 
fixing it and who is ignoring it. Is this something that you 
folks are doing as part of your effort there at Los Alamos?
    Mr. McDowell. The answer is yes. The lab, as a whole is, 
well it's an effort by many, many scientists to do exactly what 
you said.
    My particular role is understanding the forest carbon 
uptake and release and trying to find well how much does tree 
death actually matter. It seems like it matters a lot. But 
we're still working on that.
    There are other people, though, that focus quite a bit on 
the fossil fuel emissions, for example or on land use change 
and deforestation, etcetera.
    But I totally agree. There's a lot of interest in pursuing 
that so that we are prepared when and if the world takes things 
like carbon trading more serious than they do.
    The Chairman. It seems that all of the feedback groups, if 
that's the right word to describe what's happening here, all 
feedback groups lead us to a worse outcome rather than a better 
outcome. That's what you describe the dead forests rather than 
the living, carbon dioxide rather than absorbing carbon 
dioxide. Bill referred to dust over the snow that, of course, 
causes melting to occur more quickly and thawing from 
permafrost and all the rest of it. It seems as though as the 
warming progresses the acceleration of the warming also 
progresses.
    Is that a fair conclusion? Is that a scientifically agreed 
upon conclusion?
    Mr. McDowell. The Intergovernmental Panel on Climate Change 
is the world's authority on the question that you just asked 
which is synthesizing all of the evidence are there more 
positive feedbacks than negative? Positive meaning it gets 
warmer then it gets even warmer, like you said.
    There are negative feedbacks in their system. But the 
current consensus from the IPCC is there's far more positive 
feedbacks. In other words, you're right that most of the 
changes should accelerate warmth.
    So let's say ice sheet melting in the Northern hemisphere 
in the Arctic. That allows the water to absorb more heat. It 
becomes warmer. So it's a positive feedback, the same for the 
forests.
    So that's the consensus.
    The Chairman. OK.
    I thought you could give us some examples of negative 
feedbacks which would encourage us.
    Mr. McDowell. We have more cloud formation, for example, 
that might reflect more light off of the surface of the earth 
from the sun. That's an example.
    The Chairman. I see.
    Mr. McDowell. It gets cloudier in some areas.
    The Chairman. OK.
    It's hard to know what else to ask.
    Let me ask about the time lags. One of the obvious problems 
in trying to find a policy solution to this kind of problem is, 
I think, Dr. Redmond, you were referring to the fact that, you 
know, sometimes you can't wait to see the evidence of the 
problem before you take action or it's too late.
    The other time lag, which is, always seem to me to be the 
major problem in getting attention to climate change or finding 
a solution to climate change is that once the greenhouse gases 
are in the atmosphere they're going to be there for multi 
decades or hundreds of years. So trying to head that off is--
there is no immediate benefits that you can see from taking 
immediate action to reduce greenhouse gas emissions because the 
greenhouse gas emissions that have previously been put in the 
atmosphere are going to continue the trends that we're talking 
about here.
    I don't know if there's any better way to make that case to 
people than has been made in the past. If any of you have any 
great insights.
    Bill, you've put your mind to this over the last several 
years and published a great book on the subject. How do you 
suggest that?
    I remember Russell Long, who was in the Senate when I was 
first elected. He told me at one point early on. He wasn't 
talking about climate change when he said, the best or the 
worst mistake a politician can make is to solve his 
constituent's problem before his constituent knows he has it.
    [Laughter.]
    The Chairman. That was probably good advice in the context 
he was talking about. But unfortunately this is a problem that 
needs to be solved, perhaps before a lot of people know they've 
got the problem. I don't know exactly how we overcome that 
obstacle.
    Do you have any insights that you could give us?
    Mr. deBuys. I wish I had a silver bullet for this one 
because it's a really tough one. Even if we stopped all 
greenhouse gas emissions tomorrow, the climate would still 
continue warming for probably another generation. Which is to 
say that if we do all the right things, we don't get the 
payoff, really, in our lifetimes.
    That is one heck of a tough sell to sell people on. But 
it's still what we have.
    The Chairman. Our planning horizon in Washington is usually 
2 years.
    Mr. deBuys. Yes.
    [Laughter.]
    The Chairman. Because that's when we have the election. 
That's not quite long enough, but one thing I would say about 
forests. I mean, there's the global vacation this year in terms 
of greenhouse gases and that obviously is the point. 
Deforesting will continue if the concentration of those 
continue to rise. There's that set of issues.
    There is the whole set of issues though, the adaptation 
issues. What can we do? You know, here we are today, many of 
us. We've talked a little bit about it.
    But in terms of forests, when I think about this, is 
forests have been providing--well, of the excess CO<INF>2</INF> 
that humans have been putting into the atmosphere every year? 
About half of it, the planet has been performing a free service 
for us by removing about half of that excess every year. OK?
    About half of that half, so a quarter of the total, is 
being absorbed into the oceans in the way Kelly was describing. 
Basically it's just higher concentrations in the air and more 
into the oceans. It has that side effect of acidification of 
the oceans.
    But the other half of the half, about a quarter of the 
total extra humans put into the atmosphere, is being absorbed 
by terrestrial ecosystems, to a large degree, forests. Forests 
have been providing this important ecosystem service in terms 
of reducing the rate of greenhouse gas concentration rise in 
the atmosphere. So what we can do in the short run, one of 
those in the immediate run now, is care for our forests the 
best we can. Try to increase their resilience, their resistance 
to what seem to be growing climate stresses.
    So the kind of efforts, you know, like the Forest 
Restoration Programs that you've sponsored in the past. I mean, 
these are very helpful and important initiatives. We need to be 
thinking about, and I noticed the Governor was talking about 
it. I mean, they are very concerned in thinking about to 
restore forests to these landscapes and re-spore.
    Out of all the many services forest provide, but one of 
them is does feed back to the atmosphere.
    The Chairman. That's a very good point. I think you're 
right that trying to maintain the health of our forests is a 
big part of what we can do now.
    Dr. McDowell, let me ask you this question that Kevin 
prepared here that I had failed to earlier ask.
    You showed two maps in your testimony of forests with high 
levels of beetle kill in New Mexico and then in the rest of the 
U.S. My understanding is that beetles have now made their way 
into Canada into forests that previously did not have problems 
of beetles at any significant scale. What is going on in Canada 
and other parts of the world with relation to this beetle 
problem? What's your expectation of the path that beetles will 
take now that they are in Canada?
    Is that something you've looked into?
    Mr. McDowell. We can only speculate on how far they will 
migrate. There's all kinds of complexities associated with 
entomology and insects. But yes, the British Columbian 
mortality event is, to our knowledge, the largest on our 
estimate so far.
    It's been Lodgepole Pine, which is the same species that 
died all over Colorado in the last couple of years. It's the 
same insect, the Mountain Pine Beetle.
    So the entire spine of the Rockies has just been really, 
really damaged. So one could expect that it is quite possible 
and look at what our experts on this have suggested. It could 
be possible for it to migrate throughout the Boreal forest and 
toward the eastern seaboard.
    I don't know how likely that is. It requires them to change 
their--the insects to change the species of pine tree that they 
attack. But Jack Pine, which is very, very similar to Lodgepole 
Pine grow. They grow together in Northern BC and in the Yukon 
and then the Jack Pine goes to the Eastern seaboard.
    So if the insects can learn to use Jack Pine, then it is a 
very significant risk.
    The Chairman. Now is there any community action that we can 
take, as a society, to head off the spread of these beetles 
that hurt forests, in the Eastern part of the country as well 
as?
    Mr. McDowell. Yes. That depends on if there's a practical 
issue there. I mean, a whole, whole lot of insecticide might 
work. But that's a huge amount of land mass. There's all kinds 
of negative side effects of spraying insecticide across the 
landscape.
    It may be thinning. Sustainable forestry and up in Canada 
would be important to reduce the stress. But barring some 
incredible change in the forecast of temperature rise, I don't 
think it's--that that seems almost insurmountable to stop that 
if the insects figure out how to use a new species of tree.
    The Chairman. OK.
    I'd like to be able to finish this hearing on a high note, 
but I can't think how to do that.
    [Laughter.]
    The Chairman. So, let me just again thank all the witnesses 
and appreciate all of you who have interest in the subject 
being here today. We hope that people will pay attention to the 
information that's been provided today. I hope we can get the 
national debate and discussion on climate change re-energized.
    So thank you all very much. We'll stop the hearing with 
that.
    [Whereupon, at 12:02 p.m. the hearing was adjourned.]

    [The following statement was received for the record.]
Statement of Denise D. Fort, Professor of Law, University of New Mexico 
   School of Law, and Director, Utton Transboundary Resources Center
    Drought, climate change and its effect on forests and wildfire has 
been well covered by the distinguished members of the panel. I 
appreciate the opportunity to add comments about the effect of climate 
change on agriculture and ecosystems in the Inter-mountain West. I will 
focus on the Southwest, where the effects of climate change are said to 
be the most pronounced in the United States.
    The shift to a drier and hotter climate in the Southwest is now 
linked to the drought that we are experiencing and that is predicted 
for the future. I will direct my comments towards two aspects of water 
policy that are affected by climate change: agriculture and ecosystems.
       climate change and agriculture in the inter-mountain west
    The term ``drought'' is a misnomer for the change in climate that 
we are experiencing. In terms of water diversions for agriculture and 
municipal uses, water storage has provided a needed cushion for dry 
years. But, as reservoirs are drawn down and deliveries curtailed, the 
necessity of addressing the new reality of climate change cannot be 
avoided. Thus to use the term ``drought'' or ``variability'' is subtly 
misleading, because the salient question is how a diminished and 
altered supply of water will be managed. If the operating assumption is 
that there will be a return to ``average'' flows, for example, one 
makes different decisions than if one acknowledges that the average is 
changing. The implications of a changed climate should be taken into 
account in federal farm policy and in federal water policy.
    Federal payments for drought, loan subsidies, and direct payments 
affect agricultural decisions. The changed reality of climate in the 
Southwest calls for a reexamination of federal agricultural policy. The 
Conservation Reserve Program should be expanded, rather than cut, 
because it provides multiple benefits to society and farmers. For the 
Southwest the question is how to encourage the agricultural sector to 
utilize information about the changing climatic conditions to make good 
decisions. Federal subsidies can distort this process.
    Federal water policy also needs to respond to the changed realities 
of climate. The Bureau of Reclamation is examining the gap between 
``demand'' and supply (``demand'' does not have a rigorous meaning, but 
rather is a compilation of all wished for amounts by water users) and 
considering alternatives to address the gap. This process is part of a 
helpful conversation about the limits imposed by the changing climate 
and a widespread conversation about how society should address this new 
reality. It would be a mistake for the Congress to attempt to meet this 
gap with expensive federally funded projects. In a recent NRDC report 
we argue that many water importation projects lessen the resilience of 
communities and impose high energy costs.\1\
---------------------------------------------------------------------------
    \1\ Barry Nelson and Denise Fort, Pipe Dreams, Water Supply and 
Pipeline Projects in the West, Natural Resources Defense Council, 2012.
---------------------------------------------------------------------------
    There is a great deal of literature about environmental governance 
and how to address natural resources decision making.\2\ The decisions 
about how to respond to a changed climate should involve a wide range 
of interests, not be made by the traditional ``iron triangle'' of state 
engineers, federal agency heads, and members of Congress. While there 
is a continuing role for the federal government, we have new governance 
models that should be utilized to involve many more Americans in 
considering the water and land use of the next generations. Requiring 
beneficiaries to pay will go a long way towards reining in the most far 
etched proposals.
---------------------------------------------------------------------------
    \2\ For examples, see: Backlund, Peter, et. al. The Effects of 
Climate Change on Agriculture, Land Resources, Water Resources, and 
Biodiversity (Inter-agency review Draft) http://climatescience.gov/
Library/sap/sap4-3/sap4-3-draft3.pdf)
---------------------------------------------------------------------------
    Efficiency measures, water transfers and water reuse are the sorts 
of measures that will need to be used under these conditions of 
increased scarcity. But, without new initiatives, they will not address 
the ecological losses imposed by a changing climate.
               the effect of climate change on ecosystems
    The second point I wanted to make relates to the ecological effects 
of drought, and how we can ameliorate some of these effects. In 
particular, western fishes and other species associated with our waters 
are imperiled by climate change. Federal and state action is needed to 
protect the ecological values of our rivers, streams, springs, and 
other aquatic environments. Because these ecosystems and species lack 
the legal standing and economic clout of those with rights under our 
water laws, natural systems will bear the highest costs from climate 
change, unless we take affirmative steps to protect them.
    We are facing a crisis in our native fishes populations, one that 
is exacerbated by climate change. I quote from a recent memorandum 
prepared for the Utton Center:\3\
---------------------------------------------------------------------------
    \3\ Prepared by Kari Olson, UNM School of Law (J.D. expected 2014)

          ``Water dependent species in particular are facing rapid 
        declines in population due primarily to the modification of 
        natural stream and river flows, the introduction of invasive 
        species, and poor agricultural practices. Climate change will 
        potentially exacerbate these effects shown through reduced 
        mountain snow-packs, increased water temperatures, further 
        decreased surface flows, and alteration of the timing of 
        environmental cues many species rely on, as well as altering 
        the climatic events such as flooding and droughts.\4\ Fish are 
        the most imperiled vertebrate species in the Southwest with 48% 
        of the fishes found in the region in jeopardy. Native plant 
        species are imperiled as well, with about 40 species identified 
        as imperiled in the Southwest region.''\5\
---------------------------------------------------------------------------
    \4\ Comprehensive Wildlife Conservation Strategy. Chapter 5: 
Assessments and Strategies for SGCN and Key Habitats Statewide 
distributed Riparian Habitats (From wildlife.state.nm.us) pages 220- 
230, at Page 223; Backlund, Peter, et. al. The Effects of Climate 
Change on Agriculture, Land Resources, Water Resources, and 
Biodiversity (Inter-agency review Draft) http://climatescience.gov/
Library/sap/sap4-3/sap4-3-draft3.pdf at page 150; Potential Effects of 
Climate Change on New Mexico. Agency Technical Work Group. State of New 
Mexico. December 30, 2005 (from www.southwestclimatechange.org) at Pg. 
18, Citing: Covich et al. 2003, Chapter 8: Natural Ecosystems II. 
Aquatic Systems, in Wagner, F.. (ed.), Preparing for a Changing 
Climate. The Potential Consequences of Climate Variability and Change. 
Rocky Mountain/Great Basin Regional Climate-Change Assessment. A Report 
of the Variability and Change. Rocky Mountain/Great Basin Regional 
Assessment team for the U.S. Global Change Research Program.
    \5\ Bogan, M.A. 1998. Changing landscapes of the middle Rio Grande. 
In: Mac, M.J., P.A. Opler, C.E. Puckett Haecker, and P.D. Doran (eds.). 
Status and trends of the nation's biological resources: vol. 2. 
Washington, D.C.: U.S. Geological Survey. p. 562-563. at pg. 564

    The evidence of ecological loss for aquatic ecosystems led a 
consortium of wildlife agencies to propose a set of guiding principles 
for action.\6\ These goals are a useful framework for federal action:
---------------------------------------------------------------------------
    \6\ U.S. Fish and Wildlife Service, National Oceanic and 
Atmospheric Administration, with support by the Association of Fish and 
Wildlife Agencies, The National Fish, Wildlife and Plants Climate 
Adaptation Strategy, http://www.wildlifeadaptationstrategy.gov/
goals.php

  <bullet> Goal 1: Conserve habitat to support healthy fish, wildlife 
        and plant populations and ecosystem functions in a changing 
        climate.
  <bullet> Goal 2: Manage species and habitats to protect ecosystem 
        functions and provide sustainable cultural, subsistence, 
        recreational, and commercial use in a changing climate.
  <bullet> Goal 3: Enhance capacity for effective management in a 
        changing climate.
  <bullet> Goal 4: Support adaptive management in a changing climate 
        through integrated observation and monitoring and improved 
        decision support tools.
  <bullet> Goal 5: Increase knowledge and information on impacts and 
        responses of fish, wildlife and plants to a changing climate. 
        Goal
  <bullet> 6: Increase awareness and motivate action to safeguard fish, 
        wildlife and plants in a changing climate.
  <bullet> Goal 7: Reduce non-climate stressors to help fish, wildlife, 
        plants, and ecosystems adapt to a changing climate.

    We know much of what we need to do to achieve these goals. The 
Congress should incorporate these goals into the statutory missions of 
the federal water management agencies. The federal ESA has shifted 
agency actions in specific situations, but the traditional missions 
have far out-shadowed efforts on behalf of restoration.
    Finally, I believe that the Australian response to long term 
drought is a model that the congressional and executive branches should 
consider. Australia faced the loss of biodiversity in its major river 
basin, the Murray-Darling Basin. In short, it committed to the 
environmental values of the basin, providing funding from the national 
government to ensure adequate flows for the species that were dependent 
on the river.\7\ The U.S. should consider a similar investment in 
ecosystem health. Indeed, the billions of dollars spent by the federal 
government on development of western rivers should be balanced by 
expenditures for sustainability. From the agricultural interests' 
perspectives, a fair price for water rights may be a better bargain 
than the future that agriculture faces in the most arid regions.
    Thank you, Senator Bingaman, for your long standing commitment to 
tackling climate change, and for your commitment to New Mexico's 
environment.



---------------------------------------------------------------------------
    \7\ Davies, P E; Harris, J H; Hillman, T J; Walker, K F. 2010. The 
Sustainable Rivers Audit: assessing river ecosystem health in the 
Murray-Darling Basin, Australia. Marine & Freshwater Research 61(7): 
764-777; Fisher, D.E. 2010. Murray-Darling Basin Governance: The Focus 
of the Law. Journal of Water Law 21(4): 145-155; Crase, L.; Pagan, P.; 
Dollery, B. 2004. Water markets as a vehicle for reforming water 
resource allocation in the Murray-Darling Basin of Australia. Water 
Resources Research 40(8); Qureshi, M.E.; Grafton, R.Q.; Kirby, M.; 
Hanjra, M.A. 2011. Understanding irrigation water use efficiency at 
different scales for better policy reform: a case study of the Murray-
Darling Basin, Australia. Water Policy 13(1): 1-17;
---------------------------------------------------------------------------


</pre></body></html>
